<html>
<title> - DIPLOMACY OR DEAD END: AN EVALUATION OF SYRIA POLICY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                        DIPLOMACY OR DEAD END: AN 
                        EVALUATION OF SYRIA POLICY

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 9, 2020

                               __________

                           Serial No. 116-138

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
42-435PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
                      

                      COMMITTEE ON FOREIGN AFFAIRS
ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas       

                    Jason Steinbaum, Staff Director
               Brendan Shields, Republican Staff Director
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Rayburn, Joel D., Deputy Assistant Secretary for Levant Affairs 
  and Special Envoy for Syria, U.S. Department of State..........     8

                  INFORMATION SUBMITTED FOR THE RECORD

Syrian American Council letter submitted for the record..........    14
Letter to Attorney General Barr submitted for the record.........    27

                   STATEMENT SUBMITTED FOR THE RECORD

Statement submitted for the record from Representative Connolly..    63

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Responses to questions submitted for the record from 
  Representative Spanberger......................................    65

                                APPENDIX

Hearing Notice...................................................    60
Hearing Minutes..................................................    61
Hearing Attendance...............................................    62

 
          DIPLOMACY OR DEAD END: AN EVALUATION OF SYRIA POLICY

                      Wednesday, December 9, 2020

                          House of Representatives,
                      Committee on Foreign Affairs,
                                                    Washington, DC,

    The committee met, pursuant to notice, at 10:17 a.m., in 
room 2172 Rayburn House Office Building, Hon. Eliot Engel 
(chairman of the committee) presiding.
    Chairman Engel [presiding]. The Committee on Foreign 
Affairs will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any point, and all members will have 
5 days to submit statements, extraneous material, and questions 
for the record, subject to the length limitation in the rules.
    To insert something into the record, please have your staff 
email the previously circulated address or contact full 
committee staff.
    As a reminder to members, staff and others physically 
present in this room, per guidance from the Office of Attending 
Physician, masks must be worn at all times during today's 
proceeding, except when a member or witness is speaking. We are 
trying to do both. Please also sanitize your seating area. The 
chair views these measures as a safety issue, and therefore, an 
important matter of order and decorum for this proceeding.
    For members participating remotely, please keep your video 
function on at all times, even when you are not recognized by 
the chair. Members are responsible for muting and unmuting 
themselves, and please remember to mute yourself after you 
finish speaking. Consistent with House Resolution 965 and the 
accompanying regulations, staff will only mute members and 
witnesses, as appropriate, when they are not under recognition 
to eliminate background noise.
    We have a quorum, and I now recognize myself for opening 
remarks.
    This is likely the final hearing of the Foreign Affairs 
Committee for the 116th Congress and my final hearing as 
chairman.
    Yesterday, we had a hearing on the Balkans, a region that 
is near and dear to my heart, and today we will deal with 
another policy area that has been a focus of mine for decades, 
Syria. From the Syria Accountability Act, which became law in 
2003; my bill designed to push Syria out of Lebanon, to the 
Free Syria Act of 2012, which was the first legislative 
proposal to arm the Free Syrian Army--the opposition to Assad, 
through the end of my time in Congress--I have worked with 
colleagues on both sides of the aisle and with outside groups 
to push back on the murderous regime in Damascus and support 
the democratic aspirations of the Syrian people.
    I have spoken about Syria from this dais more times than I 
could count in the last few years. And each time, I cannot help 
but think that there is no way it could get worse, and then it 
does. Assad's henchmen butcher civilians in the street. They 
drop barrel bombs full of shrapnel and glass designed to maim 
and disfigure. ISIS takes over large swaths of Iraq and Syria, 
barbarically raping, stealing, and murdering. Russia's air 
force enters the war, further weaponizing the sky.
    The regime gives ultimatums to people who are so hungry 
that they are eating the grass on the ground: kneel or starve. 
China and Russia block humanitarian assistance from getting to 
the people who need it the most. The Trump Administration cuts 
off assistance to the vulnerable people of Syria and threatens 
to break off cooperation with our Kurdish partners, threatening 
any gains against ISIS and alarming our closest partners.
    I say, ``Enough!'' There has been too much suffering, too 
many lives lost, and far, far too little done to stop the 
carnage. Too little by the United States through different 
times. Too little by our partners. And this conflict is far 
from over. It is humanity's wound and it continues to fester.
    I remember sitting here as the ranking member of this 
committee in 2014, surrounded by photographic evidence of 
torture and violence in Syria's prisons, listening to the agony 
of Caesar, a brave military photographer who defected, 
smuggling thousands of photographs and giving us proof of 
Syria's killing machine. That heartbreaking testimony compelled 
me to introduce the Caesar Syria Civilian Protection Act.
    The Caesar Act imposes the most sweeping sanctions on the 
Syrian regime and its backers since the start of the civil war. 
Unless they stop the violence against their own people and take 
irreversible steps toward peace, the United States must raise 
the price of their choices.
    We worked carefully with the humanitarian community to 
ensure that the Caesar Act would not prevent humanitarian 
assistance from getting to vulnerable populations. Those 
Members of Congress who were here then remember those horrific 
pictures of dead bodies and people just being tortured and 
killed. They were horrific pictures. They look like they came 
from the Holocaust in Germany and Poland during World War II. 
They really just made me sick. So, we are making sure that 
humanitarian assistance can get to vulnerable populations.
    My bill passed the House three times before becoming law 
last year. The anniversary of its enactment prompted me to call 
this hearing today. How is the Caesar Act being used to end the 
conflict? Are we closer to a more peaceful and stable future 
for the Syrian people? At a time when ISIS is reconstituting in 
Syria, how can we ensure that they and other violent terrorist 
organizations are not able to exploit Assad's continued 
presence to win the propaganda war? Congress must be part of 
the solution.
    Getting Syria right will not be easy, as the last few years 
have shown us. We will not find a silver bullet in a grand 
bargain, geopolitical positioning, humanitarian assistance, or 
military action. Ending the violence and getting the Syrian 
people on the path to a brighter future will require some fresh 
thinking. I appreciate the fact that the next administration 
faces a wide range of pressing crises and critical negotiations 
around the world, but I would urge: please do not forget about 
the Syrian people.
    American is a haven for the oppressed. My grandparents fled 
the pogroms in Europe more than a century ago. The idea that 
only two generations later their grandson would be a Member of 
Congress, the chairman of the Foreign Affairs Committee, it 
would only have been a dream to them. But, then again, those 
dreams and ideas are what have drawn immigrants to our shores 
for generations.
    I hope that my family's story demonstrates that we cannot 
turn our backs on victims of persecution, and I hope we can 
agree that refugees should always have a place in our country. 
I also hope that the next administration will welcome Syrians 
who have been pushed from their homes, as well as other 
desperate people from around the world. At our best, we are a 
country of generosity and acceptance. The last 4 years have not 
shown us that way, and it is time to turn things around.
    I look forward to our witness' testimony.
    And I will first yield to our friend, our ranking member, 
Mr. McCaul of Texas, for any opening comments he would like to 
offer.
    Mr. McCaul. Thank you, Mr. Chairman.
    As you mentioned, this is likely our last hearing of this 
Congress. And it has really been an honor to serve with you, as 
the ranking member on this committee. And I want to thank you 
for the respect that you have shown the other side of the 
aisle, as you always have in a very bipartisan way, allowing 
many of our members to pass bills in the House.
    I gave my farewell address to you on the House floor, if 
anybody would like to see it. But I am proud of our time 
together and our record of accomplishment. I think we passed 
probably more bills than any committee in this Congress, and 
just about everyone on a bipartisan basis. And, sir, I think 
that is a record we should all be proud of, but especially you.
    And you have governed this committee with civility, with 
dignity. As Real Clear Politics Stated, ``an island of calm in 
a sea of partisanship''--that is this committee. It is the 
tradition of this committee, as I have been on this committee 
for 16 years. I know you have been on it for many more than 
that.
    And so, I want to just say thank you for your service and 
we are going to miss you, but I know that you will be close by. 
And most of all, I have really enjoyed our friendship together 
and that will always continue.
    Chairman Engel. Thank you. Thank you, Mr. McCaul. Will you 
yield to me?
    Mr. McCaul. I would, absolutely.
    Chairman Engel. Thank you.
    Mr. McCaul, I just want to return the compliment and say 
that it has been an absolute pleasure to work with you and your 
staff to help us pass bills and do what is right for the United 
States and around the world.
    We like to say that the Foreign Affairs Committee--you and 
I have said that many times--is the most bipartisan committee 
in Congress. And I think that we have proven that the people 
who are elected from different parties can work together, 
should work together. After all, we are all Americans. We all 
love this country. We care about this country. You may have 
from time to time different ideas, but we should always 
remember that other people from other parties are not the 
enemies. There are plenty of enemies of the United States 
around the world, but it does not exist in this room or in the 
Capitol, or any place else where we conduct our business.
    And I think it is important to remember that because what 
happens is--and I have been here a while now--you really do not 
get to know people unless there are on your committee or from 
your home State. You just do not have much opportunity to get 
to know people. Sometimes you have taken trips with them and 
you know them because of those trips around the world, 
different places. Sometimes you see them in the gym when you 
are working out. But, by and large, if the person is not from 
your home State and not on your committees, there is not much 
interaction. And when there is not much interaction, people do 
not know the other people, and some people demonize and the 
whole cycle begins again.
    I am glad that we do not do that on this committee. It 
really makes me very proud of every member on this committee, 
Democrat or Republican, because we try very hard to do what we 
are supposed to do, and that is to work for the American 
people. And that is what we do.
    And so, let me again say, Mr. McCaul, it has been an 
absolute pleasure working with you, being a colleague of yours, 
and being a friend.
    It is difficult; sometimes life gives you bumps and knocks, 
but I have always believed in picking yourself up and walking 
with your head held high and continuing the business. We know 
that last weekend I was over at your house for dinner--thank 
you--along with the previous chairman of this committee, Mr. 
Royce. And it was just a pleasure to be able to go over things 
from the committee and go over other things.
    So, Mr. McCaul, I thank you for those kind words. I thank 
you for everything you do, and I thank everyone on this 
committee, both Democrats and Republicans. Thank you for 
allowing me to be the chair. Thank you for really passing good 
legislation and doing things to make the lives of people 
better, make the lives of Americans better. I love this 
country, and I am so fortunate to be here and to serve in the 
U.S. Congress.
    As mentioned in my remarks, my grandparents came here in 
1907. And if they had not come here and they stayed behind in 
Europe, they would have almost certainly perished in the 
Holocaust. And so, this country of my birth, my parents' birth, 
means so much. When people say, ``God bless American,'' I 
really say it, too.
    So, I turn it back to you, Mr. McCaul. Thank you for 
everything, and we will continue, I know, to keep in contact.
    Mr. McCaul. Yes, and thank you for that. And your style of 
leadership has really been a model. And I think the way we have 
worked here--who would think a Democrat from the Bronx and a 
Republican from the heart of Texas could work so well together, 
right? But it is a model for the rest of the Congress, and your 
legacy, sir, will continue. You have quite a legacy with this 
committee, and you will always be remembered. And I look 
forward to, when we get back some normalcy, having your 
portrait up in this beautiful committee room.
    Chairman Engel. Thank you.
    Mr. McCaul. Thank you, sir.
    And we have worked a lot to advocate on behalf of the 
Syrian people, which is the subject matter of this hearing. And 
you and I saw those photographs that were taken by Caesar. They 
were horrific. They were reminiscent of the Holocaust. But that 
is the reality on the ground in Syria.
    And I want to thank the witness for being here. Mr. 
Rayburn, I know that you just came back from Syrian. So, I 
really look forward to your testimony, and I have some very 
good questions, I think, for you.
    But, Mr. Chairman, we have worked together on Syria to pass 
legislation sanctioning Turkey's invasion of Syria, to draw 
attention to the assault on civilians in Idlib, to support 
access for humanitarian assistance, and to oppose countries 
renewing ties with the Assad regime.
    And as author of the Caesar Act, Mr. Chairman, you worked 
for years to pass sweeping sanctions to cutoff resources to the 
Assad regime and its backers. Now we are already seeing how 
these sanctions are crippling Assad's reign of terror.
    And we worked together on the Syrian policy, again, not as 
Republicans or Democrats, but as Americans and as human beings 
trying to protect innocent civilians. But there is still more 
to be done.
    For starters, we should stand by our allies in northeast 
Syria to give them more opportunities to succeed. In addition, 
I recently spoke with key people on the ground in Syria who 
provided me with important updates. They have all said that we 
need more support and we need it now. And we want to find the 
best manner to do that, and I hope we can get them the relief 
they need as soon as possible.
    I would also like to, once again, encourage members of the 
international community to refrain from diplomatic engagement 
with Assad. The world cannot accept a butcher like Assad as the 
leader of Syria. There can be no justice if relations with 
Syria return to business as usual.
    So, I want to welcome our guest here today. We are pleased 
to have you. I am especially hoping you will address how the 
Administration has used the sanctions and other tools to secure 
justice for the Syrian people and further cripple Assad and his 
Russian and Iranian backers. Our goal should be to force the 
regime and its sponsors to stop the slaughter of innocent 
people and to provide the Syrian people a path toward 
reconciliation, stability, and freedom.
    Chairman Engel, your tireless work to fight for the Syrian 
people is at the core of your legacy, as I mentioned before. 
So, I want to thank you for everything you have done on behalf 
of the Syrian people and for making their struggle for freedom 
remain at the top of your agenda in this Congress. I think it 
is fitting that this is the last hearing that we have in this 
Congress on this, such an important issue and such a 
humanitarian crisis.
    And with that, I yield back.
    Chairman Engel. The gentleman yields. I thank my friend, 
Mr. McCaul. Thank you for everything you do.
    Our witness today is Mr. Joel Rayburn, the Deputy Assistant 
Secretary of State for Levant Affairs and Special Envoy for 
Syria.
    Without objection, the witness' complete prepared testimony 
will be made a part of the record.
    And I will now recognize you for 5 minutes to summarize 
your testimony, Mr. Rayburn.

 STATEMENT OF JOEL D. RAYBURN, DEPUTY ASSISTANT SECRETARY FOR 
LEVANT AFFAIRS AND SPECIAL ENVOY FOR SYRIA, U.S. DEPARTMENT OF 
                             STATE

    Mr. Rayburn. Thank you, sir.
    Chairman Engel, Ranking Member McCaul, distinguished 
members of the committee, thank you for inviting me here to 
testify about the Syrian conflicts today. It is one of the most 
dangerous crises in the world in both geostrategic and 
humanitarian terms.
    Before I begin, I want to thank Chairman Engel for his 
years of service, especially his dedication to solving this 
conflict in Syria and his enormous work on the Caesar Syria 
Civilian Protection Act. This is a remarkable legacy, Mr. 
Chairman, and the Syrian people know that. And I would add 
that, in literally every engagement that we have with Syrian 
civil society, the term ``Kanoon Kaiser,''
    [phonetic] as the Syrians refer to the Caesar Act, is 
mentioned. They know its importance and they thank you for your 
work and the work of this entire committee in doing that.
    I have just returned from a trip to the Middle East last 
night, during which I discussed the importance of advancing and 
enduring political settlement to the Syrian conflict with our 
allies and partners in Israel, Turkey, Egypt, and the Gulf 
countries, while also spending time with our local partners in 
northeast Syria.
    For several years now, our vital national security concerns 
have led the United States to pursue the interconnected goals 
of an enduring defeat of ISIS and Al-Qaeda in Syria, the 
withdrawal of all Iranian-commanded forces from Syria, and a 
lasting political solution to the underlying Syrian conflict 
consistent with U.N. Security Council Resolution 2254.
    Based on what I have just heard from our allies and 
partners, and what we are seeing on the ground in Syria, it is 
my assessment that each of our major goals in Syria is within 
reach, and I also assess that our leverage is growing over 
time. Our adversaries in Syria, conversely, have failed to 
achieve their goals. The Assad regime remains a pariah, 
excluded from the Arab League, mired in an economic crisis of 
Assad's own making, and unable to attract international 
investment. The ability of the Syrian regime and its allies to 
dictate the terms of Syria's future is waning. The path to our 
objectives is still filled with challenges, but the strategic 
situation today is encouraging, and it attests to what can be 
done when diplomatic efforts are strongly backed by both this 
Congress and responsible members of the international 
community.
    A few words about the U.S. approach to implementing and 
achieving these goals. We believe U.S. strategic objectives are 
best achieved by an action plan that includes various elements.
    First, we must carry out a political process and a 
nationwide cease-fire, as outlined in U.N. Security Council 
Resolution 2254.
    Second, we should continue our counterterrorism campaign 
and preserve the global coalition to defeat ISIS.
    And third, we must press for the withdrawal of foreign 
forces not present in Syria before 2011.
    The United States has developed a broad coalition of like-
minded countries to accomplish this plan of action, and we have 
separately engaged with Russia on such an approach. I would add 
that, in addition, the U.S. Government will continue to work 
for the return of Austin Tice, Majd Kamalmaz, and every other 
American who is held hostage or wrongfully detained in Syria. 
And we will not give up on those objectives.
    Each of the goals that I outlined above in the action plan 
requires sustained pressure in order to succeed. Along with the 
European Union, we are applying economic pressure via sanctions 
against the Syrian regime and its enablers, as you know.
    The entire international community recognizes the strong 
bipartisan support from you that led to the passage of the 
Caesar Act legislation, and believe me, Assad and his 
supporters recognize this as well. I particularly want to thank 
Chairman Engel for his leadership, as well as the whole 
committee, for making the Caesar Act a reality, as I mentioned 
before. Since the Act's adoption, the Administration has used 
the Caesar Act and other related authorities to designate over 
90 individuals and entities who use their wealth or positions 
to support Assad's war.
    Alongside our economic pressure, our political pressure 
includes partnerships with Syrian civil society to remind the 
world of the regime's atrocities, as well as active outreach to 
the Syrian opposition.
    On the diplomatic front, we lead efforts to withhold 
normalization or reconstruction assistance to the Syrian 
government, absent progress on the political process. And we 
also support the U.N.-led political process Roadmap in Geneva.
    And finally, our military pressure comes in the form of 
U.S. and allied military actions in response to Assad regime 
chemical weapons use and through U.S. leadership of the Global 
Coalition to Defeat ISIS. And we also continue to support the 
defeat-ISIS operations of our local Syrian Democratic Forces 
partners in the northeast.
    In closing, we and our international partners are clear 
that there will be no peace or stability in Syria until the 
violence ends, there is accountability for Assad's atrocities, 
and the political process truly takes hold and meets the 
aspirations of the Syrian people. That means we will continue 
to marshal all of our effective economic, political, and 
diplomatic tools to ensure that this brutal Syrian regime does 
not dictate the terms bringing this nearly 10-year conflict to 
a close.
    Thank you for the opportunity to testify today, and I look 
forward to your questions.
    [The prepared statement of Mr. Rayburn follows:]

    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. Thank you very much, Mr. Rayburn. Thank you 
for your good work.
    Without objection, I would like to place into the record a 
statement from the Syrian American Council and Americans for a 
Free Syria.
    [The information referred to follows:]

    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. I will now recognize members for 5 minutes 
each. Pursuant to the rules, all time yielded is for the 
purpose of questioning our witness. Because of the hybrid 
virtual format of this hearing, I will recognize members by 
committee seniority, alternating between Democrats and 
Republicans. If you miss your turn, please let our staff know 
and we will come back to you. If you seek recognition, you must 
unmute your microphone and address the chair verbally. And as 
we start the questioning, I will start by recognizing myself.
    As I mentioned in my opening remarks, I introduced the 
Caesar Syria Civilian Protection Act several years ago as a 
response to what we saw in this room. I mentioned before those 
horrific pictures of all these dead people, emaciated. Just 
awful. Awful. I will never forget it, the utter disregard for 
human life and the torture of innocent victims--men, women, and 
children; Muslims and Christians.
    This legislation, passed into law last December, mandates 
the most sweeping sanctions on Assad's enablers. I have 
welcomed some recent Caesar designations against Syrian 
individuals, but I would point out that the goal of the 
legislation was to pressure Assad's international support 
system and raise the cost of bankrolling the wholesale 
slaughter of the Syrian people.
    But, other than one Lebanese shipping company, non-Syrians 
have not been sanctioned under the Caesar Act. Why are we not 
using the Caesar Act to sanction non-Syrians? In particular, 
why have there been no designations by us of Russian companies 
and individuals who are so clearly and shamelessly giving Assad 
a lifeline?
    Using executive authority instead of Caesar implies that 
the Administration is looking for a more flexible way to remove 
these sanctions, should the time come. The bar for removal of 
the sanctions under Caesar is fairly high, requiring the 
Syrians to, among other things, stop the violence against 
civilians, stop their chemical weapons program, and free 
political prisoners. Are there plans between now and January 
20th to sanction non-Syrians under the Caesar Act, and after 
January 20th, are there going to be plans to do that as well? 
Given broad bipartisan and bicameral support for the Caesar Act 
and its full implementation, how could this administration and 
the next administration more fully utilize the authorities 
afforded to it by the bill?
    Mr. Rayburn. Thank you, Mr. Chairman.
    Concerning the question of non-Syrians and targeting them 
under the Caesar Act, and related authorities, we certainly 
will, I think, extend Caesar Act designations to non-Syrians in 
the future, because we agree with you and we understand the 
intent of the Caesar Act provisions. It is to separate the 
Assad regime from its sources of international support.
    I will say that the Caesar Act had a remarkable chilling 
effect on those outside Syria who might otherwise restore 
economic relations with the Assad regime or do some sort of 
business with the Assad regime or in the same interests with 
the Assad regime. So, to some degree, Mr. Chairman, the Caesar 
Act has been successful in that guard, even without designating 
a large number of non-Syrians under the Caesar Act authorities 
so far. And we have been pleasantly surprised by that. In other 
words, increased international economic relations with the 
government of Damascus has been the dog that did not really 
bark.
    Now, concerning the question of how we choose which 
authorities we use to make designations, to be honest with you, 
there is no larger purpose behind that, as we do our targeting 
internally between the State Department and the Treasury 
Department, with the support of the intelligence community. 
Believe me, we carry out our designations against specific 
targets just using the most efficient, the quickest, the most 
expedient, let's say, sanctions authorities, but there is 
absolutely no intent behind using other authorities in the 
Caesar Act to make it easier to lift pressure on the Assad 
regime in the future. In fact, our position is that we need to 
continue to put accumulating pressure on the Assad regime and 
its backers in the future, and that is going to be our 
approach.
    Your question of, will there be additional designations 
under the Caesar Act between now and January 20th, I cannot 
specify specifically what sanctions we will do in the comings 
weeks, but we are intending to do some. And in fact, Mr. 
Chairman, we now have an interagency machinery, an interagency 
apparatus, that is, I would say, clicking on all cylinders in 
terms of finding the nodes of the Assad regime's illicit 
finance network that we most need to target to be able to also 
see how the regime tries to evade sanctions and to try to stay 
one step ahead of the regime. And that is working. That is 
working very well. I am very pleased with the way that that has 
happened.
    Chairman Engel. My time is running out. I want to try to 
get in one quick question because I think it is really 
important, and I think it shows why we are so unhappy with what 
is happening.
    Because, as this year draws to a close, the Assad regime, 
supported by Russia and Iran, has recaptured most areas 
previously held by opposition forces and continues attacks on 
pockets of Syrian resistance and civilian infrastructure in the 
northwest part of Syrian. In the northeast, Turkey maintains 
its hold on territory gained since the October 2019 invasion 
and continues to harass and displace Syrian-Kurdish 
populations, which, of course, have been very loyal to the 
United States.
    So, I want to just ask you, what is the future of the 
remaining pockets of opposition-held territory in and around 
Idlib in northwestern Syria? And could you describe the extent 
of devastation and human tragedy caused by the Assad regime 
there?
    Mr. Rayburn. I absolutely agree with you, the war that the 
Assad regime and its allies have been waging against Idlib and 
the surrounding regions, and against the innocent civilians 
there, has to stop. What we have seen in northwestern Syrian in 
the Idlib region is, in the last 9 months or so, essentially a 
military stalemate. After many months of the Assad regime, with 
Russian and Iranian and Lebanese Hezbollah backing, being able 
to retake territory, we saw that come to a halt when they ran 
up against the Turkish military supporting Syrian armed 
opposition groups in February and March of this year. And we 
have not seen any indication that the Assad regime can overcome 
that military opposition from Turkey and the Turkish-supported 
groups there. So, there is a military stalemate.
    That does not mean that conditions on the ground are good 
for the civilians in Idlib and the surrounding region. They are 
absolutely atrocious. The Assad regime continues to fire 
artillery. So do its military allies. And so, this is why we 
believe the pressure has to continue on the Assad regime. We 
have to continue to use the combination of all our tools and 
pressure to make it clear to the Assad regime that there is no 
viable course for them other than coming to a political 
solution under U.N. Security Council Resolution 2254.
    Chairman Engel. Thank you very much.
    And before I turn it over to Mr. McCaul, I ask unanimous 
consent to allow Congressman Green of Texas to participate in 
this hearing. Without objection, so moved.
    Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman.
    I also want to welcome Congressman Green to the committee.
    I want to thank you for your resolution on Austin Tice that 
we passed this week, very bipartisan. His family are 
constituents of yours and very close to my district and from 
our home state of Texas. I have been briefed on this in the 
classified space. So, I am not going to ask you more details 
about that, but I do want to thank the Administration for your 
efforts, because I know you have been pressing very hard for 
his release. And we thank you for that.
    I wanted to talk about sanctions, what is Turkey doing, and 
then, the threat of ISIS.
    On the sanctions, as the chairman Stated, we were looking 
forward to these sanctions really being utilized to the fullest 
extent, as intended by Congress. But I also want to ask you 
about the northeast quadrant of Syria, where you have the 
Syrian Democratic Forces. There have been calls to lift 
sanctions on the SDF. I do not know how you could do that 
because it is all within the same country. Can you speak to the 
wisdom of--and if we cannot do that, how can we help the SDF? 
They seem to be somewhat successful in bringing all these 
pockets of different ethnic backgrounds together under one sort 
of democracy that actually seems to be working and is, 
obviously, in loyal opposition to Assad.
    Mr. Rayburn. Thank you, Congressman.
    The first observation I would make is that we understand in 
implementing the Caesar Act that this committee generated that 
the focus of the Caesar Act is to be squarely on the Assad 
regime and its enablers. So, we have no intention of releasing 
designations that would harm our partners in the liberated 
territories of Syria that are beyond the regime's control.
    Mr. McCaul. So, in other words, you would argue that the 
sanctions are not being applied to the SDF?
    Mr. Rayburn. That is correct.
    Mr. McCaul. Okay. And maybe we can followup on this when I 
have more time to talk to you, but I am very interested. I know 
you met with Nadine on the ground. I have a good friendship 
with her and I get their reporting. And it is an area of 
concern. We want to help the SDF as much as we can.
    Turkey in Syria, these Turkish forces, who are they? 
Because I have seen pictures and had reporting that it almost 
looks like they are hiring mercenaries in Syria and some 
reporting that they have actually hired former ISIS members. 
Can you shed some light on that?
    Mr. Rayburn. Yes, Congressman. So, the opposition fighters, 
the opposition armed groups, that are supported by Turkey, a 
great many of them are different elements of the Free Syrian 
Army, part of which has been organized more formally into an 
organization called the Syrian National Army, which gets 
material support, training, and so on, and basing assistance 
from Turkey and is focused on military pressure against the 
Assad regime and its allies.
    And the focus of their resistance is to the Assad regime 
and its allies is northwestern Syria. There are some that have 
been active in northeastern Syria. We have seen some of the 
same information that you have and this is something that, when 
we see signs that there are some elements that are potentially 
extremist or we suspect they have been, we raise that with our 
Turkish counterparts. We also raise that with the Syrian 
political opposition.
    Mr. McCaul. My time is running out.
    I mean it concerns me because they look like radical 
extremists, Islamists, to be honest with you. And Turkey, of 
course, came in and we worked, our Delta Forces--of course, who 
are our friends in Syria? That is a real question, right? But 
our Delta Forces came in and worked with the Kurds to crush 
ISIS. That is how we defeated ISIS in Syria. And then, to see 
Turkey go in, and I know the PKK has been designated a 
terrorist organization and they are within that, but to see 
Turkey come in and crush the very forces that we worked with to 
defeat ISIS is disturbing as well.
    Can you talk about the detention camps--my last question--
the threat of ISIS still in Syria? And I get reports about 
these detention camps. They are releasing ISIS members.
    Mr. Rayburn. Mr. McCaul, thank you for raising this.
    The detention camps which have some ISIS members--the ISIS 
members who are known to be ISIS members, a lot of these are 
in, essentially, they are in detention facilities specialized 
for holding, you know, with much greater security, and so on. 
And there are a large number of those kind of fighters, many, 
many of them who are not from Syria. They are from all over the 
world, from the Arab world, from Europe, from the Caucasus, 
Central Asia, and so on. That is a big problem.
    There are other camps for displaced people, many of whom 
either had to flee from the campaign, the last stages of the 
campaign against ISIS, or some of whom are ISIS children. They 
are the children of former ISIS families or they are women. 
There is a large number of women who were members of ISIS, or 
some of whom were virtually held hostage by ISIS. There is a 
very large number of those.
    And it is very concerning because the population, for 
example, at the camp at Al-Hawl is somewhere around 70,000 
people. There are more than 30,000 Iraqis. There are somewhere 
just shy of 30,000 Syrians, and then, there are more than 
10,000 who are from neither Iraq nor Syria; they are from other 
countries.
    And it has been very challenging to get the government of 
Iraq and the governments of those other countries to cooperate 
with us in repatriation of those non-Syrian individuals back to 
their countries of origin, for a variety of reasons. But the 
longer that they stay in Syria, it is a very big concern that 
that large concentration of people is vulnerable to 
radicalization, that you would have children who might be 
exposed to radicalization, and it could be a problem. It could 
be the next, unfortunately, the next potential caliphate. So, 
it is a problem that we really need to urgently try to get a 
solution to.
    Mr. McCaul. Yes, it is very complex. And thank you for your 
testimony.
    I yield back.
    Chairman Engel. The gentleman yields back. Mr. Sherman?
    Mr. Sherman. Thank you, Mr. Chairman. At our penultimate 
hearing yesterday, I had a chance to pay tribute to you. And 
so, I will do it in more abbreviated form today. It has been an 
honor to serve with you, Mr. Chairman. I look forward to 
serving with Mr. McCaul and especially with Greg Meeks. This 
is, apparently, the last time I will be able to ask my 
questions immediately after the gentleman from the Bronx, and 
perhaps, unfortunately, it is the last time I will be able to 
ask my questions before the gentleman from Queens.
    We have a War Powers Act that is designed to restrict the 
executive branch's authority to deploy our forces into harm's 
way. We have deployed forces into harm's way in Syria under the 
2001 AUMF that authorizes going after Al-Qaeda and, presumably 
or at least arguably, its progeny such as ISIS.
    But there are many interests in Syria that might warrant, 
or might not warrant, the use of our forces. You have to 
wrestle with those from a policy standpoint, but do you feel 
constrained at all by the Constitution and the War Powers Act 
to not deploy American forces in harm's way against any 
adversary that is not a descendant of Al-Qaeda?
    Mr. Rayburn. Mr. Congressman, the Department's view on 
this, the answer is, no, that the legal authorities for our 
presence in Syria have n't changed and that they are sufficient 
for what we need to do.
    Mr. Sherman. Well, there are many things you may want to do 
and many things the next administration wants to do. If you 
were to, say, fight against Assad to protect the Kurds, is that 
something you think you can legally do, and if so, what would 
be the legal authority?
    Mr. Rayburn. Well, I mean----
    Mr. Sherman. I am not saying it is a bad idea. You might 
want to come to Congress and seek authority, but what authority 
do you have now?
    Mr. Rayburn. Well, I hesitate to address a hypothetical 
situation like that, Congressman.
    Mr. Sherman. This is Congress; all we do is talk about 
hypothetical situations.
    Mr. Rayburn. I know, Mr. Congressman.
    Mr. Sherman. Is it your intention to follow the War Powers 
Act?
    Mr. Rayburn. Absolutely, Mr. Congressman.
    Mr. Sherman. OK. There is an authorization to use military 
force to go after Al-Qaeda. Do you believe that that authorizes 
the Administration to go after any enemy--and there are many 
heinous enemies in Syria--or is it limited to those heinous 
enemies that attacked us on 9/11?
    Mr. Rayburn. It is the Department's view, Congressman, that 
the 2001 AUMF provides the legal authority required to use 
military forces against ISIS in Iraq and in Syria.
    Mr. Sherman. Against ISIS, but----
    Mr. Rayburn. Against ISIS.
    Mr. Sherman. I mean, there is Assad. There is Putin. There 
is Erdogan. There are many other authorities who are committing 
murder in Syria. Do you think you have the authority to go 
after them?
    Mr. Rayburn. The Department's view, Congressman, is that 
the 2001 AUMF also provides the authority to use force to 
defend U.S. coalition and partner forces that are engaged in 
the campaign to defeat ISIS.
    Mr. Sherman. Well, that is very different than attacking--
obviously, our forces wherever they are can defend themselves.
    Turkey has, the Turkish government has embraced some 
extreme elements of political Islam, sometimes forming 
alliances with those inspired by Al-Qaeda and ISIS. To what 
extent is the Turkish government working with Al-Qaeda and ISIS 
forces, or the progeny of those two organizations, in Syria?
    Mr. Rayburn. I have not seen signs, Congressman, that the 
Turkish government is doing that.
    Mr. Sherman. Well, you talked about recruiting mercenaries.
    Mr. Rayburn. No, I have not seen--I mean, the way my team 
and I see it, and the way we assess the situation, is that 
Turkey considers ISIS and Al-Qaeda to be threats to Turkey, 
that we share a threat assessment with them, and that they 
share with us the goal that those forces are defeated in Syria 
and that they leave Syria. So, I have not seen a sign that 
Turkey is sponsoring ISIS.
    Mr. Sherman. In Idlib, they have worked with some forces 
that trend in that direction, but I can see there is support 
for your assessment that they are not actually dealing with 
ISIS or Al-Qaeda as organizations.
    Mr. Rayburn. Yes, we also, Congressman, we see a lot of 
friction between the forces, like the Free Syrian Army that 
Turkey really wholeheartedly supports and some of those other 
terrorist elements or really radical elements on the ground. 
There is an ongoing conflict between those all the time.
    Mr. Sherman. I yield back.
    Chairman Engel. The gentleman yields back. Mr. Wilson?
    Mr. Wilson. Thank you, Mr. Chairman. And I want to join 
with the rest of our colleagues, and it is such a rare occasion 
that everybody agrees. And that is that, indeed, we appreciate 
Chairman Eliot Engel on his bipartisanship and the success that 
you have had in Congress and the Caesar Act. It just goes on 
and on, Mr. Chairman, what you have achieved. And we appreciate 
from a bipartisan standpoint.
    In addition, I got the opportunity to actually live it with 
you. And that is, I was on the delegation with Congressman Curt 
Weldon to Pyongyang, North Korea. And you bond when you go to 
North Korea because, to see the horror of the destitution of 
North Korea, the oppression of the people, and we were there in 
2003, Congressman Weldon, and what a visionary he was.
    And, of course, then, from there, we went to Seoul, South 
Korea, and you saw the contrast of free market capitalism, of 
the success there, the democracy of the Republic of Korea. And 
so, I will always cherish our opportunity to serve together 
under the most extraordinary circumstances. But what a great 
example of the success of free market capitalism as opposed to 
totalitarianism and socialism/communism on the Korean 
peninsula.
    Now, Secretary Rayburn, you have had the hardest job I have 
ever heard of--okay?--Envoy to Syria. The American people need 
to actually see the map of what is occurring there, and the map 
itself is startling, the divisions, and it breaks your heart. I 
have been to the refugee camps in Jordan, and just 
extraordinary people under the most bizarre circumstances of so 
many different interests there.
    But what can be a great danger to all of us is the 
reconstitution of ISIS and its ability to expand zones in 
northern and central Syria. What is your assessment of the 
reconstitution of ISIS?
    Mr. Rayburn. Thank you, Congressman.
    So, the global coalition, led by the United States, 
achieved military victory against the ISIS territorial 
caliphate. That removed ISIS from the battlefield as a field 
army and as a proto-state that could marshal state-like 
resources. So, we moved beyond that phase, thank God. And the 
same thing was done in Iraq, you know, with great sacrifice all 
around.
    Now we are in a phase where ISIS is still a threat as a 
clandestine terrorist network and as a guerilla force that is 
trying to reconstitute itself in the remote areas of both Syria 
and Iraq. So, they remain a danger. I would not say--in 
northeast Syria, where the U.S. military is, is directly 
supporting Syrian Democrat Forces, we have not seen ISIS be 
able to come back and regain control of territory, but they do 
have clandestine networks that are a big danger, that are 
intimidating and assassinating people, and trying to 
destabilize that region and create an opening for them to come 
back and hold territory.
    I would highlight one other danger, which is that the Assad 
regime and the Iranian regime are now attempting to, if you 
will, subcontract to ISIS, to some of those ISIS cells, to take 
action against the Syrian Democratic Forces, against U.S. 
interests, against the moderate people of the Euphrates River 
Valley region, in particular. And it is a very malicious and 
nefarious set of activities that we are seeing.
    Mr. Wilson. And that leads to the next question, and that 
is the assessment of the current role and priorities of the 
Iranian-backed forces in Syria, and how is their presence 
evolving, as you just indicated, in the past year?
    Mr. Rayburn. Well, Congressman, ever since early 2017, we 
have seen the Iranian regime forces in Syria stop, essentially, 
taking part to a large degree in the civil war between the 
different Syrian sides, and they focus, instead, on trying to 
create strategic bases for Iranian military forces and Lebanese 
Hezbollah and try to establish a power projection platform that 
they can use to threaten Syria's neighbors.
    What we have seen over the last year, 2020, is that they 
have received a lot of military pressure from Syria's neighbors 
and they have not been able to establish cells to the degree 
that they would like, the Iranian regime, but they have not 
abandoned their strategic goal of trying to turn Syria into, 
basically, an Iranian regime military garrison that they can 
use to pose a new threat to the entire region.
    Mr. Wilson. And it is encouraging, your report on the 
Caesar Act, a credit to the chairman and ranking member. That 
is past. Is there more that Congress can do to back up 
sanctions against the Assad regime?
    Mr. Rayburn. I would say the authorities are good, 
Congressman. We really like the authorities. We can do a lot 
under the authorities. I think where the departments can use 
help now is in being able to build out the infrastructure to 
make the optimal use of the authorities. So, I think it would 
be good to have more analysts, to be able to have more 
bandwidth, to be able to do more sanctions all the time.
    We scrape together as much bandwidth as we can, and we have 
increased that through cooperation with the Treasury Department 
over the last year. We worked very hard on it. But I would 
really like to see in the future, I think, and Congress could 
really help out by helping to increase the State Department and 
Treasury Department and intelligence community's bandwidth to 
do more of these sanctions at a higher operational tempo.
    Mr. Wilson. Thank you very much, and thank you, Mr. 
Chairman. But, Secretary Rayburn, you are very encouraging, how 
positive you are, and thank you for your service.
    Mr. Rayburn. Thank you, sir.
    Chairman Engel. Thank you.
    It is now my pleasure to call on the gentleman who will be 
the next chairman, will succeed me as chairman of this 
committee, Mr. Meeks. Mr. Meeks and I have been friends and 
colleagues for a long, long time, not only here in Washington, 
but in New York, where we both reside, and we have been active 
there, very active in New York as well. I know Mr. Meeks very 
well and I know that he will do an excellent job--an excellent 
job--as chairman. He works very hard. He is smart. He is fair. 
He has a great knowledge of both running a committee and, also, 
of all the hot spots and problems around the world.
    So, I am delighted to call him ``Mr. Chairman,'' and 
delighted to be able to work with him. And I want to make him a 
pledge that whatever help he needs from me, he will 
automatically get it, and I look forward to him doing many, 
many great things for our country and for the world.
    So, it is my pleasure to call upon my good friend from New 
York. And he and I, again, have a lot in common in terms of 
where we both grew up and the types of families we came from. 
And again, it shows how America is a wonderful, welcoming place 
where people can do well and work hard and attain certain kinds 
of goals.
    So, I look forward to watching Mr. Meeks as chair, and I 
know he will do an excellent job. So, it is my pleasure to call 
upon the next chairman of this committee, Gregory Meeks of New 
York.
    Mr. Meeks. Thank you, Mr. Chairman. And as I said, it is 
bittersweet for me because we are such good friends, and I 
cherish you as a friend and as a chairman and as a leader. And 
so, for me, unlike many others that may be on this committee, 
me and you are going to be seeing each other and talking to 
each other quite frequently, as I am going to need your strong 
advice and encouragement as we move forward. So, I am not 
saying goodbye to you because you are going to still hear a lot 
from me.
    In the way that you conducted this committee, I look 
forward to following in those footsteps, working with Mr. 
McCaul in a bipartisan way to keep the traditions of this 
committee moving forward and the standards that you set, which 
are very high standards.
    But I know for some of my colleagues, because of geographic 
concerns, they might not get to see and talk to you often, but 
Gregory Meeks will get to see and talk to you often and utilize 
your expertise, your advice, and your thought patterns as we 
move forward. So, this is just a blip in our piece, not seeing 
you in Washington maybe as often, particularly on Capitol Hill 
and in the hearing rooms and traveling with you, although I 
have learned lessons on how to do appropriate travel, so that 
the Members, when we do travel, get to travel again, get to 
really get on the ground and understand what is taking place on 
the ground, as many of your CODELs have been.
    So, again, I look forward to our continuing relationship in 
regards to trying to make sure that individuals who grew up in 
public housing in the greatest country of the world can lead 
this great committee called Foreign Affairs and actually do 
some good in the world, because you have clearly put your stamp 
on progress and goodness in the United States and around the 
world. And I thank you for that and look forward to continuing 
to work with you.
    Let me, also, thank Mr. Rayburn for your testimony here 
today. I know that you served over 26 years in our military and 
graduated out of West Point. So, we thank you so very much for, 
and are very grateful for, your service to our great country.
    My question is, you know, it is, as most of my colleagues 
have said, it is quite difficult in Syria when you look at that 
you have got, nations like Russia that destabilized the region 
and having a coherent strategy is counterproductive action by 
Turkey and Erdogan. And I think that we must do all the things 
that we can with empathy, so that we can never lose sight of 
the Syrian people and the human tragedy that has taken place 
there. They continue to suffer very terribly.
    For me, I believe in a multilateral approach. I think 
multilateralism is very, very important and trying to pull 
together our allies and move and do things in a way that we can 
make sure that we are standing up for our values and our 
opposition to human rights indiscretions.
    In my opinion, the Administration has failed to stand up to 
Russia, and the Trump Administration has, in fact, enabled 
Putin's belligerence and expanding zone of influence in the 
region. And I see them as being one of the dominant forces 
there, including, as you have indicated, Iran. But there 
appears to be no clearly discernible strategy applied 
consistently across the Administration. I do not see that that 
has happened.
    So, my question is, what path forward is there for the U.S. 
and for the United States partners to lead a strategic change 
in Syria? How can we come together with our partners to lead 
this strategic change that has to take place in Syria? I do not 
think it can be done by the United States alone. I think it has 
got to be done with our strategic partners also.
    Mr. Rayburn. Mr. Meeks, I agree with you 100 percent. The 
United States, in order to achieve our goals in Syria, 
particularly a political solution to the Syrian conflict under 
U.N. Security Council Resolution 2254, we have got to continue 
to work with our European partners, our partners in the Arab 
world, and others in the international community who are like-
minded, who share with us the judgment that, in order for there 
to be a stable Syria, a peaceful Syria, not just for the sake 
of the Syrian people, but for our own vital interests, 
including our vital security interests, there has got to be a 
government in Damascus that behaves differently toward the 
region, that is not hostile to the region around it, and that 
behaves differently toward its own people; it is not hostile to 
its own people in a way that destabilizes Syria.
    So, I agree with you 100 percent. This has to be done on a 
multilateral basis, and that is what I and my team are doing, 
working on every day.
    Mr. Meeks. So, I do not know, maybe I am out of time. I 
have looked at the clock. But my one other question is, in 
dealing with the Kurds, I am concerned, what can we do in 
conjunction with our allies, again, around the globe to protect 
the people, the Kurds who have been working with us? And then, 
unexpectedly, we pull our troops out. What do you think we 
should do to protect the individuals that have been working 
with us through thick and through thin, whether it was dealing 
with ISIS crises or the Kurds with their force and who fought 
with us? What do you think that we could do collectively to 
make sure that there is not another unforeseen just pullout 
that leaves them subject to attacks by others, especially by 
Turkey?
    Mr. Rayburn. Thank you, Mr. Meeks.
    I think the best thing we can do to help our local partners 
who have been working with us so closely in the campaign 
against ISIS is keep the pressure on ISIS, preserve the global 
coalition, continue to press home our advantage in the campaign 
against ISIS, so that ISIS cannot return and threaten the 
people of northeastern Syria, including the Kurdish population 
there, which suffered hugely at the hands of ISIS.
    And then, use our diplomatic efforts to try to keep the 
situation on the northern border of Syria as calm as possible, 
and to use our good offices with both sides to try to diffuse 
tensions there. So that the focus can remain in eastern Syrian; 
the focus can remain on the threat of ISIS, the threat that is 
posed by ISIS, and also, the new threat that has been emerging 
over the last couple of years of the Iranian regime trying to 
carve out space in that zone. So, that is what I would say is 
the best thing that we can do for our local partners.
    Mr. Meeks. Thank you, and I yield back.
    Chairman Engel. The gentleman yields back.
    Let me again say to Mr. Meeks I know that this committee is 
going to thrive under his stewardship, and I look forward to 
all good things continuing to come out of this committee under 
his leadership.
    Mr. Perry.
    Mr. Perry. Thank you, Mr. Chairman, and thanks for holding 
this hearing. It seems like there is not a whole lot of 
official business, so to speak, going on in D.C., and I 
appreciate your interest in keeping important things on the 
docket during the waning moments of the session.
    Thanks for calling attention to this foreign policy 
priority. The challenges facing policymakers with respect to 
Syria are numerous, obviously. The government in Damascus is a 
State sponsor of terrorism. It allows the Iranian regime, as 
Mr. Rayburn points out in his witness testimony, to regularly 
threaten our allies in Israel and Jordan.
    Over the past several years, the Trump Administration has 
made important strides in shoring up our Syria policy, 
including through the implementation of the Caesar Act and 
working to negate ISIS and Al-Qaeda's influences in the 
country.
    However, my objective today is not to highlight the 
successes of this administration's foreign policy. I think 
those achievements are plain enough to see. My purpose is to 
underscore that these successes are despite the best efforts of 
wayward, unelected bureaucrats working to undermine President 
Trump at every opportunity.
    Mr. Chairman, I would like to submit for the record a 
letter to Attorney General Barr demonstrating the breathtaking 
dereliction of duty of James Jeffrey, the U.S. Special Envoy 
for Syrian Engagement, if I may.
    Chairman Engel. Without objection.
    Mr. Perry. Thank you, Mr. Chairman.
    [The information referred to follows:]

    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Perry. President Trump announced in 2018, and again in 
October 2019, his decision to withdraw U.S. troops from Syria 
and fulfill an important promise to the American people. There 
is no ambiguity about the President's position on the issue, 
whether we agree with it or do not agree with it. That is why 
he is the Commander-in-Chief and that is why we have elections.
    In a November 12th interview with Defense One, Ambassador 
Jeffrey boasted that the President never did achieve his 
principal objective in Syria because he, Ambassador Jeffrey, 
intentionally undermined it. After listening to Mr. Jeffrey's 
counsel, President Trump decided to leave 200 soldiers in 
Syria. However, and as Mr. Jeffrey made abundantly clear, there 
are far more than 200 American troops in that country. The only 
issue was the President was kept in the dark about that 
particular material fact. This is beyond unacceptable.
    The President needs to be able count on a team of advisors 
to carry out his policy agenda and be honest. The American 
people expect and deserve that. It compromises the security of 
our Nation to have unelected bureaucrats wantonly bend and 
break the law. 18 U.S.C. Code 1001 clearly States that it is a 
crime to knowingly and willfully falsify, conceal, or cover up 
by any trick, scheme, or device a material fact. It should be 
of concern to everyone on this committee that the President, 
our Commander-in-Chief, was intentionally lied to in the course 
of carrying out his charge.
    Now that has vitally important implications for the future 
of Syrian policy and, indeed, for U.S. foreign policy as a 
whole. I mean, we have got to be able to count on the actions 
and the words of the chief diplomat, which is the President of 
the United States.
    My hope is that my colleagues will join me in bringing this 
matter to light and ensuring that any and all appropriate legal 
remedies are pursued to ensure the integrity of all counsel 
given to a duly elected President of the United States, 
regardless of who that is or from what side of the aisle they 
come from.
    Mr. Rayburn, are there any implications for national 
security on an unelected bureaucrat to willfully lie to the 
President of the United States?
    Mr. Rayburn. Mr. Perry, the State Department team from 
Secretary Pompeo down to the lowest level has been diligent in 
executing the President's guidance on Syria. In fact, the three 
goals that I mentioned in my testimony were goals that were 
given to us by the President. So, we have been following the 
President's guidance throughout.
    I respect and admire Ambassador Jeffrey, but what was 
characterized in that interview simply in my experience did not 
happen. The State Department neither sets U.S. force levels nor 
are we responsible for communicating them to the President. It 
is the Department of Defense that does that with the 
President's----
    Mr. Perry. So, are you saying he did not say that in the 
interview?
    Mr. Rayburn. Sir, I am not saying that he did not say that 
in the interview. What I am saying is that that did not happen 
in reality. The State Department is not responsible, it is not 
our job to----
    Mr. Perry. I did not say the State Department was 
responsible, but he said that he did not follow the President's 
order and that there were actually more troops left in Syria. 
And I am just asking if there were policy implications, or 
otherwise, regarding those statements or any statements in the 
future of that, like where an unelected bureaucrat, diplomat--I 
do not mean to say it pejoratively--makes decisions outside the 
Commander's intent.
    Mr. Rayburn. Sir, in my experience it did not happen.
    Mr. Perry. So, one of them has to be a lie? You just do not 
know which one?
    Mr. Rayburn. Sir, I cannot characterize, I cannot 
characterize what happened in that interview. That was 
conducted after Ambassador Jeffrey retired from the State 
Department. What I can say is, at no point did the State 
Department misrepresent our military posture in Syria. It is 
not our job to do that.
    Mr. Perry. I yield the balance.
    Chairman Engel. The gentleman's time has expired. Mr. 
Connolly?
    Mr. Connolly. Thank you. Thank you, Mr. Chairman. Can I be 
heard?
    Chairman Engel. Yes, you can, Mr. Connolly.
    Mr. Connolly. Great.
    Well, I listened with great interest to my friend's concern 
about misrepresentations made to the President with respect to 
force levels in Syria. I wish we had equal fervor in protecting 
the President and the country from misrepresentations about a 
duly elected President-Elect and the process where a record 
number of Americans participated in a free and fair election 
that resulted in the election of President-Elect Biden. But 
that is a different matter.
    Mr. Rayburn, what is our policy objective in Syria? What is 
we want to accomplish?
    Mr. Rayburn. Sir, as I mentioned, it is the three 
interconnected goals. Those are our primary focus. It is the 
goal of getting an enduring defeat of ISIS and Al-Qaeda. It is 
the goal of seeing all Iranian-commanded forces withdrawn from 
Syria because of the destabilizing role that they play. And the 
third element of that is achieving a political solution to the 
Syrian conflict under U.N. Security Council Resolution 2254, 
the political solution.
    Mr. Connolly. So, implicit in those three goals, is part of 
our objective the replacement of the Assad regime?
    Mr. Rayburn. Congressman, U.N. Security Council Resolution 
2254 calls for a political process that will result in a 
transition to a different government in Syria. Now exactly how 
that government is constituted, that is meant to come from the 
Syrian people themselves and the voice of the Syrian people in 
that political process.
    Mr. Connolly. Are we confident that there is any kind of 
mechanism in the near future in Syrian that would accurately 
reflect the voice of the Syrian people in a free, democratic 
choice of leadership?
    Mr. Rayburn. Congressman, I think the mechanism that is 
outlined in 2254 is the best mechanism that we could hope for. 
What it is going to require to bring it about is for us to 
continue to employ our pressure tools to compel the Assad 
regime and its enablers to come into the 2254 process, to 
accede to that process. They are doing everything they can, 
Congressman, to try to stay out of the 2254 process. That is 
why we are putting month by month more and more pressure on 
them with our political pressure, economic pressure, and so on, 
and some with their pressure, to try to compel them to stop the 
war and to come into the political process.
    Mr. Connolly. Well, good luck with that. I do not see a lot 
of evidence that that is working, but that is a discussion for 
a different day.
    One of the objectives you cited was defeating ISIS in 
Syria. Have the Kurds been allies in that effort?
    Mr. Rayburn. The Kurdish forces that are part of the Syrian 
Democratic Forces, and some of them in Iraq, for example, the 
Kurdish Peshmerga, of course, yes, they have been very 
important partners in prosecuting the campaign against ISIS.
    Mr. Connolly. Wouldn't it be fair to say, as a matter of 
fact, that the Kurds were for a long time the only element on 
the ground actually winning back territory and defeating ISIS 
on the ground?
    Mr. Rayburn. They were a major element, that is for sure. I 
do not think we could say they were the only ones, I mean, 
because it is a campaign that was going on across both Iraq and 
Syria. And it was very important that the Iraqi Security 
Forces, with our help, were making huge advances against ISIS 
at exactly the same time that the global coalition was helping 
local partners, who were both Kurdish and Arab and some 
Christian, Syrian Christian, in Syria to sort of make efforts 
on the two ends of the caliphate at the same time. So, you 
wound up with a squeezing of the ISIS caliphate. So, it had to 
be a comprehensive approach. The Kurdish forces under the SDF 
played an enormously important role in that, absolutely.
    Mr. Connolly. And at one point, did not President Trump 
decide, rather precipitately, to pull out U.S. troops, and 
therefore, U.S. support for the Kurds that led to the Kurds 
cutting a deal with Assad, because they felt abandoned by the 
United States Government?
    Mr. Rayburn. Well, what transpired, Congressman, is that 
the President wound up issuing policy guidance to maintain the 
support to the Syrian Democratic Forces, and that is why it is 
going on today. I, myself, just 2 days ago, I was on the ground 
in Hasakah in northeastern Syria with our U.S. military 
counterparts and our Syrian Democratic Forces partners, who are 
continuing a very intense campaign of pressure against the 
remnants of ISIS in northeast Syria.
    Mr. Connolly. Yes, I understand, but I seem to recall at 
the time when the President made this decision without 
consultation with serious people, like, for example, Secretary 
Mattis, that it led to resignations; it led to condemnations of 
the policy. It was seen as not only inconsistent, but it could 
be construed as an abandonment of our Kurdish allies on the 
ground who had fought so valiantly against ISIS. Remember that?
    Mr. Rayburn. Ultimately, Congressman, the President decided 
to maintain our support to the local partners. So, I would say 
that abandonment did not happen, and it is witnessed--I mean, I 
saw it with my own eyes just a couple of days ago. The 
relationship between our forces and our diplomats on the 
ground--I have a small team of diplomats that are there as 
well--with the Syrian Democratic Forces remains vital for the 
security of northeast Syria.
    Mr. Connolly. OK. If I have any time left, let me just ask 
a humanitarian question. How many refugees have been generated 
by the cascading crises and conflicts in Syria? How many 
Syrians are refugees now?
    You are mute.
    Mr. Rayburn. Sorry. I muted myself instead of unmuting 
myself.
    More than 5 million, well over 5 million Syrians are 
refugees, Congressman, and another almost 6 million or more who 
are internally displaced.
    Mr. Connolly. Internally displaced.
    Mr. Rayburn. So, it is more than 11 million Syrians--that 
represents more than half of Syria's prewar population--are 
displaced from their homes as a result of the conflict.
    Mr. Connolly. Right.
    Chairman Engel. The gentleman's time has expired.
    Mr. Connolly. Well, can I just ask real quickly, Mr. 
Chairman----
    Chairman Engel. Yes.
    Mr. Connolly [continuing]. And how many Syrian refugees 
have been allowed into the United States in the last year?
    Mr. Rayburn. In the last year, Congressman, I believe the 
number if 481.
    Mr. Connolly. Five million refugees and we have accepted 
481? Do you think that is doing our fair share? And I will end 
with that.
    Chairman Engel. Thank you.
    Mr. Connolly. Your number is correct.
    I will just end, Mr. Chairman, by saying I just think it is 
scandalous that this administration has abandoned refugees. We 
talk about trying to have a resolution in Syria, and yet, we 
have almost closed the doors. We have gone from accepting 5500 
refugees in the last year of the Obama Administration to 481 
last year. And by the way, in this fiscal year, a total of 
eight, with 5 million refugees. I think that is scandalous and 
I think it, frankly, undermines whatever policy we are pursuing 
in Syria.
    I yield back.
    Chairman Engel. The gentleman yields back. Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    Let me, just first off, say that, obviously, Syria is a 
huge tragedy, and I think, in hindsight, we are going to look 
back and see the things we should have done and did not do. I 
think there is this idea that America is war-fatigued and any 
involvement anywhere is over the top.
    But I just remember early on, with people using different 
examples--if the U.S. intervenes, you are going to see all this 
horrible stuff happen, and if we do not, it will not. But I 
think where we are at in Syria is beyond even our wildest kind 
of horrible scenario. You have, in essence, kind of great world 
powers all parked there. You always are on the edge of some new 
conflict brewing. And, of course, the human tragedy is 
unspeakable.
    You think about the 7 million refugees, as you mentioned. 
That is a prime breeding ground and recruiting ground for 
terrorism. If you have no hope and opportunity, it is real easy 
to be susceptible to somebody coming along and saying, ``The 
West is at fault. Here is some extreme ideology. Your hope is 
in this.'' And it is easy to recruit terrorists out of it.
    But I just want to ask you--and, sir, thank you for being 
here, by the way. I appreciate it. And thank you to the 
chairman for calling this.
    One area that I believe the Administration has done a good 
job is in pushing back against Iranian influence in Syria. And 
through your maximum pressure campaign, the IRGC both has 
limited funds and a limited willingness to conduct their malign 
influence in Syria. Can you talk a little bit about how Iran's 
calculus has changed following the increase in sanctions and 
the strike that killed Soleimani?
    Mr. Rayburn. Thank you, Mr. Kinzinger.
    I would say that the Iranian regime over the last year, 
since the strike against Qasem Soleimani, I think it has been 
proved that the Iranian regime cannot overcome the maximum 
pressure that we place upon them and they cannot overcome the 
military pressure that the Israelis, for example, put against 
the Iranian regime activities in Syria, in a way that Qasem 
Soleimani had hoped for.
    However, we have also seen that, though I believe the 
Iranian strategy in Syria has failed--and what we have seen 
over the last year, it has been demonstrated that it cannot 
succeed because they cannot overcome the pressure from the 
Israelis and from us--that the Iranian regime senior leadership 
remains committed to executing that strategy that really has no 
hope of doing what they intended it to do. And that is a very 
dangerous situation.
    So, they continue to try to move in strategic weapons. They 
continue to try to control Syrian territory in order to 
establish a strategic road from Iran over to southern Syria, 
and even to Lebanon, to threaten Syria's neighbors. And they 
continue to try to establish outposts, maintain militias of 
really non-Iranians--from Iraqis, Afghans, Lebanese, and so on, 
as well as local Syrians that work for the Iranian regime--and 
different outposts to try to control territory to both 
destabilize the local situation, but also to try to consolidate 
that strategic ground line of communications.
    They continue to try to do that, even though any objective 
assessment I think tells us they cannot succeed. So, they need 
to recognize reality. It means that there has to be continued 
pressure, so that they give up the strategic goal, and so that 
they withdraw their forces and abandon this strategy.
    Mr. Kinzinger. Yes, I think it is interesting, when you 
look at that, you know, you look at the Soleimani strike and it 
is different than, I think, the fight against certain terrorist 
groups where, if you kill a leader, another leader rises up. 
This is a situation where I think Soleimani had unique 
influence and unique, I guess, abilities. And they are 
struggling now after this. You see that in Lebanon and every 
place, frankly, where Iran has had, tried to have, proxies and 
influence, that they have actually failed.
    I always think it is interesting how, when the Israelis 
pushed back against Iran too close to their country and Syria, 
it does not really make news. When we do something that is a 
massive thing, we have to debate here. And the reality is I 
think Iran is desperate. And I think, as much as I can 
understand my friends on the other side of the aisle with the 
Iran nuclear deal, I think replugging into that would only send 
a lifeline to Iran to continue the kind of tragedy that we are 
seeing.
    I did have a bunch more questions, but that conversation 
went long. I will just say I really appreciate the work you are 
doing. I really appreciate the attention you have given to 
this. It is a huge tragedy. There is a lot more that unites 
Republicans and Democrats on Syria than not, and I hope that, 
going forward, we can continue to maintain pressure on Assad 
and understand the difficulties that some of these countries 
hosting these refugees have faced.
    So, with that, thank you for being here.
    Mr. Chairman, I yield back.
    Chairman Engel. Thank you, Mr. Kinzinger.
    Mr. Deutch.
    Mr. Deutch. Thank you, Mr. Chairman.
    Thank you, Mr. Rayburn, for joining us today.
    I want to just take another moment to congratulate my 
friend, Chairman Engel, at this, his final hearing. Mr. Engel, 
during your time as chairman, you have advocated for a 
principled American role in the world. You have fostered a 
spirit of bipartisanship on this committee. I think it is 
especially appropriate that yesterday we were here focusing on 
the Balkans and today on the Middle East, two regions where you 
have played an outsized role, including and especially in Syria 
through the Caesar Syria Civilian Protection Act. I value your 
friendship and leadership and know that you will remain engaged 
on these important issues in the future.
    I also want to congratulate Mr. Meeks on his historic 
selection as chairman-elect and commend Mr. Sherman and Mr. 
Castro for their work on the committee. And I look forward to 
working with all of you in the next Congress to help restore 
America's global leadership.
    In March, we are going to mark a 10th anniversary of the 
start of the war in Syria. The last decade has seen the deaths 
of 600,000 people, the displacement of more than 11 million, 
both inside Syria and around the Middle East. Assad's reign of 
terror, including starvation and indiscriminate bombing, has 
caused destruction and devastation to millions of innocent 
civilians.
    The conflict and associated humanitarian tragedy has 
destabilized neighboring countries like Jordan, Lebanon, Iraq, 
and Turkey, and will reshape the region for decades to come. 
For 10 years, there has been a humanitarian crisis in Syria, 
and ending the conflict through negotiated diplomatic solution 
is key to stabilizing the Middle East and achieving U.S. 
interests in the region, and most importantly, providing a 
better future for the Syrian people.
    The President's policy has been defined by the 
irresponsible choice to rapidly withdraw U.S. forces from 
northeastern Syria, a decision made without coordination with 
our allies and partners, without much input from his advisors, 
leading to the resignation of Secretary Mattis. The President's 
decision destabilized Syria and made the American people less 
safe, strengthened Russia as the main international power 
deciding the future of Syria. And finally, it reduced U.S. 
leverage to shape a political outcome and tipped the balance of 
diplomatic and military power in favor of Iran, Russia, and 
Assad. And if we are going to avoid a dead-end in Syria and 
revive diplomacy, it is important that we openly acknowledge 
these and other mistakes and that we learn from them.
    Mr. Rayburn, your testimony acknowledges only a political 
solution will end this conflict, but the Assad regime has held 
to its desire to use military force to end it. You also 
acknowledge that it has been exacerbated by Russia's refusal to 
lean harder on Assad.
    So, we have two different political processes--Geneva and 
Astana. And we were sidelined in the Turkish-Russian Security 
Corridor Agreement. Russia blocked Security Council Resolutions 
that are meant to just help get assistance to those in need.
    And my question is pretty simple. What is our leverage at 
this point to jumpstart the process in a way that furthers our 
security interests, that protects the Syrian people, and that 
produces real peace rather than just a stalemate, as recently 
retired Special Envoy Jeffrey called it?
    Mr. Rayburn. Thank you, Congressman.
    I think the centerpiece of our leverage is what we have 
been able to do under the Caesar Act authorities and other 
related authorities to apply economic pressure and the pursuant 
political pressure to the Assad regime and its allies. But what 
we have seen over the past year is that--and we weren't sure 
about this when we started--but what we have learned is, I 
think, that the Assad regime cannot absorb the shock over time 
of our accumulating economic and political pressure that the 
Caesar Act gave us. And at the same time in 2020, we learned 
that the Assad regime does not have the military wherewithal to 
accomplish a military victory, a military outcome, and create 
facts on the ground.
    So, I have been encouraged, but the situation on the ground 
for the Syrian people remains awful in pretty much every corner 
of Syria. But, strategically speaking, I think 2020 has been 
the year when we have seen the leverage of our adversaries in 
Syria has hit its ceiling, while our leverage has grown and, in 
particular, with what we have been able to accomplish with the 
Caesar Act.
    Mr. Deutch. What about designating Russians, Mr. Rayburn?
    Mr. Rayburn. That remains a distinct possibility.
    Mr. Deutch. What leverage do we have with Russia?
    Mr. Rayburn. Well, I think we have a lot of leverage with 
Russia. I think the most important leverage we have with Russia 
is the pressure that we put on the Assad regime, Russia's 
client, which has been unrelenting and which I know, because we 
have our plans, we know what we would like to accomplish with 
our designations and political pressure in the future. We know 
that that pressure is only going to deepen.
    Mr. Deutch. Mr. Rayburn, I'm sorry.
    Mr. Rayburn. Sorry.
    Mr. Deutch. I appreciate that. I just want to ask one quick 
question, Mr. Chairman.
    Very quickly, you noted, Mr. Rayburn, that the U.S. will 
continue to work for the return of Austin Tice and Majd 
Kamalmaz, and every other American who is held hostage or 
wrongly detained in Syria. You may know I represent the 
Levinson family. So, issues of American hostages hit very close 
to home for me. The members of this committee strongly support 
efforts to bring all Americans held in Syria home. Do you 
believe that those efforts to achieve their release should 
occur separately or must they be a part of diplomacy to reach a 
political solution in Syria?
    Mr. Rayburn. So far, Congressman, our diplomatic engagement 
on trying to find out the status and get back our missing and 
unjustly detained Americans is carried out by our Special 
Presidential Envoy for Hostage Affairs. I play a close 
supporting role in that, but the engagement has gone through 
Hostage Affairs.
    Mr. Deutch. Yes, I appreciate it.
    Thank you, Mr. Chairman, and I yield back.
    Chairman Engel. Thank you. Thank you, Mr. Deutch.
    Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman. And I would like to 
reiterate the comments relative to yourself about your 
leadership, and I want to thank you for the many years of 
service and dedication and commitment you have given to us. 
Regardless of which side of the aisle we were on, you have 
treated us all with tremendous respect and deference, and you 
are totally what a chairman should be. And that is why you are 
getting so much praise from both sides. You deserve it, and we 
all wish you all the best in the future.
    And I am running out of superlatives that I can give for 
you because we have had a number of hearings here, but they are 
all heartfelt. You are a great friend, and even though you are 
a Democrat and I am a Republican, I consider you a tremendous 
human being and wish you nothing but the best.
    Chairman Engel. Thank you, Mr. Chabot.
    Mr. Chabot. Thank you. Thank you very much. Thank you.
    Mr. Rayburn, I wanted to focus first on Idlib, if I could. 
The situation there in Idlib province is precarious at best, 
with well over a million internally displaced people who have 
been the target of Assad bombings. What can be done to prevent 
Assad, backed by Russia and Iran, obviously, from invading the 
province or committing further atrocities there?
    Mr. Rayburn. Thank you, Congressman.
    Of course, we make clear in our engagements with our 
Russian counterparts, and with others, that our political and 
economic pressure is meant to, among other things, in addition 
to pushing for a political solution to the conflict, it is also 
meant to deter the Assad regime from continuing this brutal war 
against his own people. So, we apply our own economic and 
political pressure.
    We also signal support for what Turkey has done militarily 
on the ground in the Idlib region by being willing to use 
Turkish military force to stop the Assad regime and its allies 
from continuing an assault on those, you know, the people who 
are living under horrific conditions in Idlib.
    So, it is a combination of the two. It is the political and 
economic support that we are able to place, and it is Turkish 
military pressure.
    Mr. Chabot. Thank you.
    As you know, both the U.S. and Turkey have designated the 
PKK as a terrorist organization. How do you assess statements 
by Mazloum Kobani from the Syrian Democratic Forces during a 
recent interview with The Crisis Group--it was published back 
on November 25th--mentioning the presence and role of thousands 
of PKK-trained non-Syrians; in other words, foreign elements 
within the SDF ranks? And are there ongoing consultations with 
the SDF on this issue, and if so, at what level?
    Mr. Rayburn. We absolutely believe that it is a 
constructive step for all parties in northern Syrian, all 
parties in Syria, for that matter, to agree that part of 
settling the conflict, part of reducing tensions and violence 
against Syrians, is that non-Syrians need to leave Syria. Non-
Syrians should not be using Syria as a base to attack Syrians 
or to attack others in the region. So, I think Mazloum's 
comments were very constructive in that regard. And the answer 
is, yes, we are ready to be helpful to try to help local groups 
go through that process of trying to get foreign elements to 
leave Syria.
    Mr. Chabot. Thank you.
    I have probably got time to squeeze one more question and 
answer into my time. So, let me go to this. Could you discuss 
our efforts to provide humanitarian assistance to the people of 
northwest Syria, and what kind of coordination mechanisms are 
in place with Turkey to accomplish that?
    Mr. Rayburn. Thank you, Congressman.
    Well, I mean, we have a lot of coordination mechanisms. In 
fact, I have a team, the START team, that is located in 
Istanbul, which helps to oversee the implementation of U.S., 
the delivery of U.S. aid programs into northern Syria, 
northwest Syria, in particular, where the need is so acute. We 
work very closely with Turkish counterparts to do that, and to 
try to overcome some of the bureaucratic hurdles or logistical 
hurdles because it is so essential for those people.
    Mr. Chabot. Thank you.
    Actually, I do have time to get one last one in. A central 
aspect of the Caesar sanctions bill, which we have already 
talked about in committee, was sanctions on the Syrian Central 
Bank, but, thus far, the bank has not been sanctioned. When do 
you expect progress on that?
    Mr. Rayburn. Well, I think the Syrian Central Bank is 
sanctioned under other authorities. So, it is the Treasury 
Department which has to make a determination under the Caesar 
Act about the qualifications of the Syrian Central Bank under 
the Caesar Act provisions. I do not have an answer for you on 
when Treasury is going to complete its work on that, but I know 
that it is something that they have been working for some 
months.
    Mr. Chabot. Thank you very much.
    My time is expired, Mr. Chairman. I yield back.
    Chairman Engel. Thank you, Mr. Chabot.
    Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman. I also want to 
begin by thanking you for your extraordinary leadership of this 
committee. You have been a principal voice for American global 
leadership and for the power of America's example around the 
world. And you have promoted bipartisanship throughout the work 
on this committee in the best traditions of our national 
government and for the benefit of the American people. And you 
have, obviously, been a terrific leader of this committee, a 
great friend, and wonderful colleague. And I, too, want to say 
thank you. I look forward to staying in contact with you.
    And I congratulate our incoming chairman, Mr. Meeks, who I 
know will be a great leader of this committee, and, of course, 
thank Mr. Castro and Mr. Sherman for their participation as 
well.
    And I want to thank you, Mr. Rayburn, for being here today.
    I want to focus first on our Russian and Turkish 
involvement in the region. In March 2020, Russian President 
Putin and Turkish President Erdogan reached an agreement that 
established a security corridor. And I wondered if you could 
tell me kind of what is the status of that, to what extent is 
the U.S. able to monitor military movements and violence 
against civilians in these areas, and how much longer do you 
envision this arrangement holding? There has been a lot of talk 
that it could collapse at any moment. So, your assessment of 
that, please.
    Mr. Rayburn. Thank you, Congressman.
    A very important issue. You are talking about the cease-
fire agreement that was reached between Russia and Turkey in 
Sochi. That was an important point at which it was clear that 
the Assad regime and its allies had to abandon their major 
offensive to try to overrun Idlib. It was an important point 
when we saw the military balance, the strategic military 
balance, shift against the Assad regime in northwest Syria. I 
would say it has been tense, but, roughly, durable as a cease-
fire. We have not seen the Assad regime attempt to return to a 
major offensive against Idlib in the intervening months.
    And frankly, Congressman, I think that is because they 
recognize that they suffered a significant defeat at the hands 
of the Turkish military and its local Syrian partners back in 
February and March. So, I think they realize that they cannot 
tangle, the Assad regime does not have the military means to 
tangle with the Turkish military and its local partners.
    So, I do not expect the Assad regime to try to upset that 
cease-fire agreement. Now, in terms of the actual 
implementation of the agreement between the Russians and 
Turkish, some of that we are not privy to, but we have seen 
that I think that it is clear that the Assad regime, and 
Russia's preferred option of trying to achieve a military 
solution to the Syrian conflict, was rendered irrelevant as a 
result of that February-March confrontation.
    Mr. Cicilline. Okay. Thank you.
    I want to try to get in a couple of more questions. The 
Defense Intelligence Agency reports evidence of increasing 
cooperation between the Syrian Democratic Forces, our Kurdish 
partners in Syria, and the most potent anti-ISIS force, 
obviously, and Russian forces. What is the Administration doing 
to move the SDF away from cooperation with the Russians? Is 
that even possible?
    I think you are on mute.
    Mr. Rayburn. Sorry.
    Since October 2019 and the confrontation in northeast Syria 
at that time, there has been coordination between Syrian 
Democratic Forces and Russian forces, and even Assad regime 
forces, in parts of northeastern Syria, where the U.S. military 
is no longer located.
    What we would not like to see is that turn into some sort 
of political agreement between the communities of northeast 
Syria and Damascus.
    Mr. Cicilline. Mr. Rayburn, I have really limited time and 
I want to get one more question in. My question is very 
specific. Is the Administration doing anything to move the SDF 
away from corroboration with Russia?
    Mr. Rayburn. Specifically, well, look, we maintain our 
partnership with the SDF. So, we are the indispensable partner 
for the SDF and we make that clear in our----
    Mr. Cicilline. I take it that there is not a specific 
effort underway. I am just raising this. I think it is a very 
serious issue, but I want to get to one last question.
    You mentioned the Al-Hawl camp was built to house about 
10,000 people, but it has housed, as you mentioned, 70,000 
people for the last 2 years. Ninety-four percent of them are 
women and children who fled ISIS-controlled areas. And so, the 
public reporting from NGO's has been that the conditions are 
horrific. Five hundred people at least the last year perished 
in the camp due to malnutrition, poor health, and hyperthermia.
    And I just would like to know a little more about the 
conditions there, what we are doing, and what is your 
assessment of SDF's ability to continue to administer this 
camp? What is the situation with COVID in Al-Hawl, and 
particularly with the concerns that all of us have about the 
radicalization of people who are left in those conditions? 
Could you talk more about that camp and the prospects for kind 
of continuing the conditions over there and whether things are 
going to improve and people are going to be repatriated? But 
just a more full discussion on that.
    Mr. Rayburn. Sure. There is a COVID problem in Al-Hawl, and 
it is very challenging because the medical conditions there, 
the medical infrastructure there is very rudimentary. So, it is 
a problem. There is more help that is needed for the local 
authorities to try to tackle that COVID problem, and so it does 
not spread. It is a very vulnerable population, very densely 
contained.
    For the SDF to administer a security camp, it takes an 
enormous amount of resources. So, I mean, the best answer for 
Al-Hawl camp over time is to try to reduce it, first and 
foremost, by vetting people who are in Al-Hawl. And so, those 
who do not pose a risk who are Syrians, where it is possible, 
could return to their local Syrian communities, again, only 
after they have been very closely vetted and it is established 
that they are not a risk. And the SDF is working on that.
    There are more than 30,000 Iraqis that need to be 
repatriated to Iraq. There is not yet a fully working mechanism 
to make that happen. And so, that needs a lot of attention. It 
needs a lot of diplomatic energy in the future.
    And then, for those several thousands who are neither 
Iraqis nor Syrians, but who are many from Europe or North 
Africa, from other places internationally, it has been very 
challenging to get those host nation governments to accept the 
repatriation of their citizens. And so, that is something that 
really we have got to apply more energy with trying to reduce 
that population in the future.
    But the bottom line, Congressman, is the problems there are 
very difficult and the best answer is to try to reduce the 
population of Al-Hawl camp as quickly as we can, and it is very 
tough.
    Chairman Engel. The gentleman's time has expired. Thank 
you, Mr. Cicilline.
    Mrs. Wagner.
    Mrs. Wagner. Thank you, Mr. Chairman, and I want to add my 
voice to the chorus of those expressing their praise and 
respect for you, your chairmanship, your bipartisanship, your 
leadership, and grace. So, I wish you and your family all the 
best, and I know that you will not be a stranger to this 
committee or to any other service to our country.
    Chairman Engel. Thank you. Thank you.
    Mrs. Wagner. Definitely. It is my pleasure, sir.
    I also want to welcome Deputy Assistant Secretary Rayburn. 
And I thank the chairman, in particular, again, for his work on 
the Caesar Syria Civilian Protection Act, critical legislation 
that has given the United States the tools to hold the Assad 
regime accountable.
    Deputy Assistant Secretary Rayburn, I was horrified last 
year when Turkey initiated a military offensive against Kurdish 
forces in northwestern Syria. I believe that the United States 
has a duty to prevent genocide of the Kurds, contain ISIS so 
terrorists cannot regroup, and ensure any repositioning of U.S. 
forces will promote stability in the region.
    More than a year after a cease-fire resulted in the 
withdrawal of Syrian Democratic Forces from the Syria-Turkey 
border, how has the Turkish incursion affected the situation on 
the ground in Syria, particularly regarding the safety of our 
Kurdish partners?
    Mr. Rayburn. Thank you, ma'am.
    So, that situation in October-November 2019, it was a very 
challenging one. It was very difficult. We were able to produce 
an agreement with the government of Turkey to observe a cease-
fire in that zone of northeastern Syria, where their military 
operations had extended. And that cease-fire has been, 
essentially, durable. It is a tense situation there. We see 
occasion flare-ups along the line, but we have not seen any 
major moves from either side.
    And our message to both sides has been it is not in your 
interest--it is not in Turkey's interest; it is not in the 
SDF's interest--to see a renewal of that confrontation. It 
distracts, we think, both sides away from the major problems in 
Syria, which are the Assad regime, ISIS, Al-Qaeda, the Iranian 
regime, and so on.
    So, I would say we have been able to continue the campaign 
against ISIS. The global coalition has been able to continue 
its efforts, and there has not been a resurgence of ISIS in 
northeast Syria. They continue to act as a clandestine network, 
but they have not experienced a resurgence. And so, it is 
something that has really complicated our task in northeast 
Syria over the past year, but we continue to do our work there.
    Mrs. Wagner. And I would like to get in a couple of 
questions here.
    Assad seems to reject the necessity of a negotiated end to 
the Syrian civil war, believing, instead, that it can achieve a 
military victory over opposition forces. Russia is not putting 
sufficient pressure on Assad to convince the regime to 
participate seriously in any kind of negotiations. In your 
view, does this undermine the Russian-backed Astana talks, and 
what leverage can the United States use to rejuvenate 
negotiations?
    Mr. Rayburn. That is a good question. In our view, the 
Astana Forum, which we do not participate in, is defunct. It 
was meant to be a cease-fire forum, and then, the Assad regime 
and the Russians attacked all the cease-fires, attacked all the 
cease-fire zones. So, that is a dead forum. They still meet, 
but there is no political solution going to come out of the 
Astana Forum.
    That is why we spend all of our time applying pressure to 
the Assad regime and its allies to compel them to come into the 
only viable forum that exists, which is the one in Geneva, the 
political process in Geneva that is U.N. supervised under U.N. 
Security Council Resolution 2254. I think we can get them 
there. It will take more pressure. It will take more actions 
under particularly the Caesar Act and other Syria sanctions 
authorities, but I think we can get there.
    Mrs. Wagner. Humanitarian assistance ensures that our 
efforts to hold the Syrian government accountable are not 
hurting the Syrian people, who have already suffered so very 
much. At the same time, we must prevent the regime from using 
humanitarian assistance to circumvent economic pressure. I 
understand that Russia and China are using their veto power at 
the U.N. to try to funnel aid through the government's seat in 
Damascus. How is this complicating our ability to provide aid 
to the people of Syrian?
    And I am out of time here. So, very quickly, sir.
    Mr. Rayburn. You got it exactly right, ma'am. It is very 
difficult. So, a lot of the humanitarian assistance that we 
support comes cross-border. It does not go through the Syrian 
government in Damascus. The Russians would like to compel 
everyone to do humanitarian assistance cross-line working 
through Damascus. We resist that. We try to exercise oversight 
over the humanitarian assistance that we contribute to that 
does have to go cross-line, and there is some. We support 
humanitarian assistance throughout Syria, even in the areas 
that the Assad regime controls. But it is something we have to 
watch very closely, and I think we need to work more closely 
with the U.N. agencies in the future to try to guard against 
the Assad regime being able to divert humanitarian assistance 
away from the Syrian people and into the channels the Syrian 
regime would benefit from. It is a problem we need to watch 
closely.
    Mrs. Wagner. Thank you. Thank you, Secretary Rayburn, for 
your service over time.
    I appreciate the chair's indulgence, and I yield back, Mr. 
Chair.
    Chairman Engel. Thank you, Mrs. Wagner.
    Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman. And again, thank you 
for all your work. I have enjoyed working with you and hope to 
continue to do so.
    Along those lines, I had an amendment that passed the NDAA 
that the chairman worked with me--thank you, Mr. Chairman--to 
establish a coordinator for ISIS detainees. And as part of the 
congressionally appropriated dollars for the Counter-ISIS Train 
and Equip Fund, the U.S.-trained Provincial/Regional Internal 
Security Forces, PRISF, is funded to detain roughly 12,000 ISIS 
militants in custody and roughly 2,000 foreign fighters. Mr. 
Rayburn, could you tell us the status of that? And can you tell 
us with confidence that these prisoners, these dangerous ISIS 
and foreign fighters, that they are secure?
    Mr. Rayburn. Congressman, it is a tough problem. I think 
they are secure right now, but there is always a danger. And 
the longer those foreign terrorist fighters are on the ground 
in Syria, there is a danger that, for example, they would 
overextend the Syrian Democratic Forces and other local 
security forces that have to try to guard them, that have to 
secure them. So, the answer for the foreign fighters, in the 
same way that it is for Al-Hawl camp, the answer is to try to 
get the foreign fighters processed and repatriated back to 
their home countries, and that has been very challenging.
    Mr. Keating. Mr. Rayburn, are there efforts in place, not 
only with these detainees, but also with the refugees, to 
inhibit the coordination and further radicalization of those 
individuals? It is a real concern. So, what is being done in 
that regard with the detainees and, also, with these refugees?
    Mr. Rayburn. I would say there is not enough being done. 
And it happens that on Monday, when I was in northeast Syria 
talking to U.S. military counterparts and our local partners, 
that the recognition that there needs to be a de-radicalization 
campaign in not so much the foreign fighter facilities, because 
a lot of those are really hardened ISIS people, but more among 
the displaced population or the lower-threat population, maybe 
people that were sort of auxiliaries to ISIS, but they weren't 
necessarily dyed-in-the-wool radicals. But there needs to be an 
effort to help with de-radicalization efforts there.
    As far as the refugees are concerned, that is an enormous 
problem, and really, there needs to be more attention to that. 
It is different in each different place because the refugees 
are spread out over so many countries.
    Mr. Keating. All right. Well, it is an ongoing concern, and 
I hope that some of the pullbacks we have had, some of the 
support we have, has not deteriorated or inhibited our ability 
to deal with an important issue. And I hope that the 
Administration can work successfully repatriating these people, 
so they can go back to their own countries to seek justice, an 
ongoing concern that I do not think was helped as we pulled 
back some of our influence militarily through the area.
    Mr. Chairman, I yield back.
    Chairman Engel. The gentleman yields back. Thank you, Mr. 
Keating.
    Mr. Mark Green.
    Mr. Green of Tennessee. Thank you, Mr. Chairman, and thank 
you for your work in this region and, of course, on the 
committee. My comments from before go and I wish you the best.
    Chairman Engel. Thank you.
    Mr. Green of Tennessee. Ranking Member, thank you for 
your--thank you, sir--thank you for your comments, too.
    And, Mr. Rayburn, thank you for your testimony today. I 
want to start my comments with a good, hardy ``Go Army, Beat 
Navy.''
    I started my company, my medical company, in Panama City, 
Florida, where I met a physician named Oussama Rifai. Dr. Rifai 
had grown up in Syria, in fact, grown up in Aleppo. And this 
was in the 2007-2008 timeframe. And I got to know Dr. Rifai, 
and then, he convinced me that I should join the Syrian Medical 
Society and go back to Syria to teach physicians in the 
country.
    So, in the early part of 2011, I began to prep some 
lectures to do and to deliver in Aleppo, Syria. I was excited 
to go. Dr. Rifai had shared with me the amazing beauty of that 
city, the city of Aleppo, where Christians and Muslims worked 
together in peace. He described it, citing examples where the 
Muslim families would babysit the children of Christians while 
the Christians did Christian festivals and services, and vice 
versa. It was an unbelievable city.
    My friend calls me a few weeks into the summer and says, 
``Are you still going to Syria?'' And I am like, ``Well, I 
think so.'' And, of course, it deteriorated, continued to 
deteriorate, and I wound up not getting to go.
    But this war comes and destroys the beauty of that city, 
crushes the people of that country, spawns the amazing, 
unbelievable, horrific ISIS caliphate that President Trump and 
the United States military so crushed, and has created this 
unbelievable situation where Turkey and the Kurds and Russia 
and the Syrian government are not in this milieu, and it is 
probably the hardest foreign policy challenge of the United 
States. It is a 9.9 out of 10.
    Clearly, this guy Assad is a butcher and he is following in 
the line, if you go and study what happened in Hama, Syria 
years ago, he is following in the footsteps of his father. The 
apple does not fall very far from the tree.
    But just a few quick questions. Most of my questions have 
already been asked by committee members. I just wondered, Mr. 
Rayburn, if you could talk a little bit about Russia's long 
game, what their footprint is today, and what their long game 
is there, and what our plans are to thwart what they are doing.
    Mr. Rayburn. Thank you, Congressman.
    The Russians have been there for a long time. They have had 
a military presence there going back into the cold war. so, it 
is half a century that the Russians have had a naval base 
there, that they have had a very close relationship with the 
Syrian military.
    What we would like to see is that all the forces that were 
not there before 2011, ultimately, go home, and that there is a 
political solution that makes it so that they have no rationale 
to be there. I mean, that is us included.
    As far as what the Russians are doing there, to be honest 
with you, I think the Russians now, since 2016, have been 
trying to enable Assad to win a military victory that he cannot 
win and that they cannot sort of lift him up and carry him over 
the finish line. The Syrian regime military is too hollow. That 
regime is too brittle and weak.
    And so, what is their long-term game? It is not clear to me 
that there is a viable one because of the path that they have 
been on. The path they have been on for the last four or 5 
years has hit a dead-end or a cul-de-sac and there is nowhere 
for it to go.
    So, to be honest with you, I think, honestly, it is time 
for a reality check for all the allies of Assad to realize that 
there can only be a political solution to this conflict. They 
are not going to get their military Reconquista.
    Mr. Green of Tennessee. Thank you for that.
    And I am, essentially, out of time. Chairman, I yield back.
    And thank you, Mr. Rayburn, for your comments.
    Mr. Rayburn. And beat Navy, sir.
    Mr. Green of Tennessee. Yes, beat them.
    Chairman Engel. Thank you.
    Mr. Espaillat.
    Mr. Espaillat. Yes, thank you, Mr. Chairman. Before I turn 
to Mr. Rayburn, I would like to acknowledge the chairman's 
final hearing, and thank him for his tireless commitment to 
this committee.
    Chairman Engel and I share neighboring districts, and he 
has been a wonderful friend and mentor to me in my first two 
terms. And while in the State Senate, I represented his home 
district as a State senator. So, our friendship is deep and I 
value it, and I wish him all the very best.
    My question is that, despite the dire threats facing 
refugees to return to Syria, neighboring States like Lebanon 
and Turkey that have hosted thousands of Syrian refugees since 
the beginning of the civil war in 2011 are increasing calling 
on those Syrians to return home. Reports have emerged, 
verifiable reports have emerged, that Syrian refugees have been 
forced to return from both neighbor States, including hundreds 
in the late 2019 year, documented by both Amnesty International 
and various Lebanese press reports throughout 2020. These 
evictions and forced returns of Syrians from Lebanon are very 
well-documented. Could you provide an update on the latest in 
terms of these forced refugee returns, Mr. Rayburn?
    Mr. Rayburn. Yes, Congressman. Thank you for raising this. 
It is really important, I think less so Turkey, because I think 
Turkey shares with us the fundamental position that refugee 
returns have to be safe, voluntary, and dignified, and there 
has to be an independent assessment that conditions on the 
ground are safe enough for people to return.
    In Lebanon, we have had a challenge with that with our 
Lebanese counterparts, and we have seen them try to remove the 
``voluntary'' out of that formula of safe, voluntary, and 
dignified. And there has been a great deal of pressure on 
Syrian refugees from time to time to try to coerce some of them 
to go home.
    We have tried to make it very clear in our engagement with 
Lebanese counterparts that it is unacceptable to see refugees 
of any kind suffer back to Syria, when we know that the 
conditions----
    Mr. Espaillat. Are these----
    Mr. Rayburn. Sorry.
    Mr. Espaillat. Are these refugees safe going back there or 
are their lives in danger? What is the status, for the most 
part, of these refugees?
    Mr. Rayburn. I think you can say, Congressman, the 
situation in Syria is not safe for people who would like to 
return home, because, simply put, the Assad regime has not 
ended its war against the Syrian people. And that is the sine 
qua non; that is the starting point, if there is going to be 
the creation of conditions on the ground in Syria before people 
will feel safe enough to voluntarily go back.
    Mr. Espaillat. So, what additional steps should the U.S. 
take to work with our other partners, as well as multilateral 
organizations, to let the U.N. to prevent these forcibly 
returns that could lead to the deaths of many of these 
refugees?
    Mr. Rayburn. I think we have to look if there is--I mean, 
there are avenues open to us, even in terms of if it gets down 
to economic sanctions, certainly political pressure. But we 
will issue warnings, if we see that kind of activity beginning, 
we will issue warnings to those countries.
    Now, at the same time, it is incumbent on us, I think, and 
the international community to continue supporting those 
countries who have very meager resources and who are bearing 
the burden of, and the pressure of, having to host a large 
refugee population, to help them with resources to make it so 
that they can bear that burden better.
    Mr. Espaillat. Let me turn real quickly to the Caesar 
sanctions. Now I think that we can all safety say that, 
although throughout the decades the United States has applied a 
range of sanctions to Syria and the Assad government, it really 
has not significantly changed the behavior of the government. 
What makes the Caesar sanctions different?
    Mr. Rayburn. The Caesar sanctions, first of all, I love the 
Caesar sanctions, as someone who is implementing them, because 
not only does it mean that we can use the prongs that are 
within the Caesar sanctions, it means that everyone we 
designate under any Syria authority, the Caesar Act attaches 
secondary sanctions to them. And that is what is really 
powerful, because it is not just the people or the businesses 
or the organizations that we sanction directly; it is anyone 
that does business with them or interacts with them is 
vulnerable to sanctions as well. And that is where we get the 
real power of the Caesar Act.
    I think we are seeing things change on the ground in Syria. 
The Syrian regime did not dream that it would be at the end of 
2020 and would have its currency crashing, its regime economy 
failing, and its resources that it uses to fund its war against 
the Syrian people dwindling the way it has. And I think the 
Caesar Act has played the central role in helping to bring that 
situation about. So, I think things are changing, and you will 
see that more in the coming months.
    Chairman Engel. Thank you. Thank you very much. Thank you, 
Mr. Espaillat.
    Mr. Espaillat. Thank you, Mr. Chairman. I yield back.
    Chairman Engel. Thank you.
    Ms. Wild? Ms. Wild.
    [No response.]
    Okay, we will move on.
    Mr. Levin.
    Mr. Levin. All right, Mr. Chairman. Here I am. Can you hear 
me all right?
    Chairman Engel. Yes, we can hear you fine. We can hear you 
fine.
    Mr. Levin. Thank you so much.
    Well, I want to start by just expressing my immense 
gratitude to you for your service to this Nation, to this 
House, to this committee, and your mentorship and friendship to 
me, in particular.
    I will never forget coming to Congress, and, you know, one 
courts the chairmen of the committees one wants to serve on. 
And not only were you gracious and respectful of me as a 
freshman, but your enthusiasm for the work of this committee 
and your sort of intellectual depth you bring to it, it just 
has been a real inspiration to me. And so, that is something 
that I will take forward with me. So, I am really grateful to 
you for all that.
    Chairman Engel. Thank you. Thank you very much.
    Mr. Levin. So, let me ask a question about chemical 
weapons. Earlier this year, the Administration reported--and I 
am quoting--``We believe the Assad regime is seeking to 
reestablish strategic weapons production capabilities it lost 
in the course of the conflict, and we continue to see Syrian 
procurement activity in support of its chemical weapons and 
missile programs.''
    So, aside from sanctioning Syrian individuals, what is the 
State Department doing to respond to a renewed Syrian chemical 
weapons program and is there a diplomatic strategy?
    Mr. Rayburn. Thank you, Congressman.
    Yes, there is a diplomatic strategy, and it can be 
summarized in building an international consensus, building a 
coalition of like-minded countries to use all of their 
pressure--political, economic, whatever kind, some law 
enforcement--to hold the Syrian regime accountable, not just 
for the chemical weapons use that has been documented in the 
past, but this very real danger that the Syrian regime retains 
the ambition to reconstitute its chemical weapons arsenal.
    Right now, you are seeing on the diplomatic side, I think 
the most important forum that is underway right now is at the 
OPCW in The Hague, where we and many other like-minded 
countries are going through a process of following up on the 
OPCW's ultimatum to the Syrian regime to come clean about its 
chemical weapons use and its program, and if not, then to be 
under the danger of suspension from the OPCW.
    Mr. Levin. Sir, so would you say that this is a good 
example of the importance of multilateral institutions and of 
the U.S. working collaboratively with many allies to achieve 
our foreign policy goals?
    Mr. Rayburn. Yes, absolutely.
    Mr. Levin. Okay. Well, that is good, and I hope on a going-
forward basis, we will really emphasize our work with other 
countries and not take a go-it-alone approach.
    Let me ask you about the humanitarian situation. As of this 
fall, roughly half of Syria's prewar population remains 
internally displaced, 6.2 million people, or registered as 
refugees in neighboring States, 5.6 million people, and nearly 
80 percent of the remaining population is living below the 
poverty line. The U.S. has directed more than $11.3 billion 
toward Syria-related humanitarian assistance since Fiscal Year 
2, and Congress has appropriated billions more for security and 
stabilization initiatives in Syria and neighboring countries. 
What is the Administration's humanitarian assistance strategy, 
given the dire, dire circumstances in Syria right now?
    Mr. Rayburn. Thank you, Congressman.
    Actually, when we bring it up-to-date, we are actually over 
$12.2 billion in humanitarian assistance that the United States 
has contributed for the Syrian people since the beginning of 
the conflict. The strategy right now is to try to continue the 
humanitarian assistance flow, especially cross-border into 
northern Syria. Right now, we are in the middle of trying to 
work with the U.N. agencies and other humanitarian providers to 
do winterization, because there is the onset of winter in Syria 
which can be harsh conditions or awful.
    We, also, over the last several months were able to put 
together assistance for Syrians inside and outside Syria of 
$141 million to address the particular emergent needs brought 
on by the COVID pandemic, which has hit Syria very hard.
    So, I think in the coming months what you will see us do is 
try to--and we have had to respond to the Russian pressure to 
reduce the capacity, to reduce the U.N. mandate to do cross-
border assistance. So, I think what you will see us do in the 
coming months is to continue to work with like-minded countries 
to lock in ways to have that humanitarian assistance be 
predictable and continue, enduring into the liberated 
territories of northern Syria, at the same time that we watch 
for measures to try to contain the COVID pandemic in Syria. 
Those are, I would say, the two priority areas right now.
    Chairman Engel. Thank you. The gentleman's time has 
expired.
    Mr. Levin. Mr. Chairman, I see my time has expired, but it 
is difficult to say this for the last time, but, with 
gratitude, I yield back to you.
    Chairman Engel. Thank you, Mr. Levin. I very much 
appreciate that. Thank you. Thank you so much.
    Ms. Wild.
    Ms. Wild. Thank you, Mr. Chairman. I join in the comments 
of my colleagues about your service. It has been my great honor 
to be on this committee with you as the chairman.
    I am going to be moving as I ask this question because I am 
about to run out of charge, and I apologize for that. But I 
will go ahead.
    And I wanted to start, Mr. Rayburn, sort of following up on 
what Mr. Levin just asked you about. And that is, and without 
restating the obvious that all of us are aware of in terms of 
the terrible suffering that is happening in Syria, I do want to 
know whether you believe that we should reevaluate our 
sanctions policies toward--we will just limit it to Syria right 
now--in light of the unintended effects that those sanctions 
appear to be having on everyday Syrians' food supply in areas 
controlled by the Assad regime. And I guess a followup to that 
is, what specific steps is the Administration taking to help 
alleviate the hunger crisis in Syria?
    Mr. Rayburn. Thank you, Ms. Wild.
    Since the beginning of Fiscal Year 2020, the United States 
has actually spent $1.7 billion on humanitarian assistance to 
the Syrian people. So, we have stepped up our contribution. At 
the same time, we have made very clear, through our diplomatic 
engagements, through our engagements with civil society and 
business communities, that there are specific carve outs to our 
sanctions programs, so that we do not constrain humanitarian 
assistance on the ground, nor things like food production.
    The Assad regime has undertaken, along with its allies, a 
propaganda campaign to claim that we do, but we have clarified 
at every opportunity that we do not sanction that kind of 
activity. The kind of people and businesses and organizations 
that we are sanctioning under our sanctions program right now 
are the worst of the worst of the entourage of Bashar al-Assad 
and his regime, and they are not doing anything--the kind of 
people we are sanctioning, the kind of organizations we are 
sanctioning are not doing anything to alleviate suffering of 
the Syrian people. They are the ones causing the suffering of 
the Syrian people.
    In particular, under the Caesar Act, the point of the 
Caesar Act is to put pressure on the regime, so that they will 
stop killing and stop inducing the suffering of Syrians. So, I 
think the regime's propaganda tries to put it absolutely upside 
down.
    Ms. Wild. So, let me ask you this: how much assurance do 
you personally feel that the humanitarian aid that the United 
States is providing is actually getting to the everyday 
Syrians?
    Mr. Rayburn. I think we can be more confident in that in 
places where we have access--northeast Syrian, for example--and 
in places where we have NGO partners that can have less 
restricted access. That is northern Syria. We are less 
confident in that in places that the Assad regime controls. 
There is always the risk of diversion, but it is something that 
we stay in close touch with the U.N. agencies to try to guard 
against things like Assad regime cronies being able to get 
subcontracts by using front companies, and things like that, to 
implement assistance that they, then, will divert into militia 
hands, Assad Shabiha hands, or other Assad regime crony hands.
    Ms. Wild. I am going to switch gears and try to be quick 
because I am running out of time. But I want to return to the 
issue of Ambassador James Jeffrey and some statements that he 
made, specifically one in an interview last month in which he 
said, ``We were always playing shell games to not make clear to 
our leadership how many troops we had there.'' My question to 
you is, is that statement accurate, No. 1? And No. 2, what is 
the actual number of troops we have in Syria today?
    Mr. Rayburn. In terms of the actual troop numbers, I would 
defer to the Defense Department for comment on that. And I 
know, for example, simply put, troop numbers are beyond the 
purview of the State Department. I mean, that is for the 
Defense Department to set, and we all----
    Ms. Wild. Okay. Could you comment on Ambassador Jeffrey's 
comment?
    Mr. Rayburn. Sure. I mentioned this earlier in the hearing. 
The State Department team, from Secretary Pompeo on down, has 
been very diligent in executing the guidance of the President, 
and in my experience at no time did the State Department 
mischaracterize the military posture in Syria. We had no reason 
to do that. We did not have the responsibility to either set 
force levels or to report them to the White House. So, as far 
as I know, that did not happen.
    Chairman Engel. Thank you. The gentlewoman's time has 
expired.
    Ms. Wild. Thank you, Mr. Chairman.
    Chairman Engel. Thank you, Ms. Wild.
    Ms. Houlahan.
    Ms. Houlahan. Thank you, Mr. Chair, and, of course, I will 
very much miss you, but I do not think that this is goodbye. I 
think that we will talk and see one another. But thank you for 
being such a good mentor to me and to so many others.
    My question has to do with a statement that was made by 
CENTCOM Commander General McKenzie about Syrian refugees. And 
the quote that I have is that he said, ``Unless the 
international community finds a way to repatriate, reintegrate 
into home communities, and to support locally grown 
reconciliation programming for these people, we are buying 
ourselves a strategic problem 10 years down the road when these 
children will grow up radicalized. If we do not address this 
now, we're never really going to defeat ISIS.'' And that is 
what he said.
    So, my question is, do you agree, sir, with General 
McKenzie's assessment and what role has the State Department 
played in this effort? What role should the State Department 
play in this effort?
    Mr. Rayburn. I do agree with General McKenzie's assessment. 
I do think the number of Syrian refugees and displaced people 
outside Syria/inside Syria is so immense. It is a population 
that is very vulnerable to radicalization in the future, and it 
is something that has to be addressed. The No. 1 way to address 
that is to end the conflict through a political solution under 
U.N. Security Council Resolution 2254, so that the war ends, so 
that conditions inside Syria change, and so refugees and IDPs 
can go back home. That is the single greatest thing that we can 
do, and that is what the State Department team works for 24/7.
    Now, in terms of the specific threat of refugee and IDP 
settlements/camps, especially inside Syria, we work very hard 
to try to encourage repatriation of non-Syrians back to their 
countries of origin. And that is really hard because a lot of 
the countries of origin do not want to take them back. They are 
not open to taking them back. So, it is going to take a lot of 
diplomatic energy. We have got to redouble our efforts to press 
those countries to take their people back, and some of them are 
not good people. We know that. Some went off and joined ISIS, 
went off and joined Al-Qaeda. So, they are a danger, but it is 
doing no good to anyone for them to remain in Syria.
    Ms. Houlahan. So, as we are talking about the progress in 
defeating ISIS and Al-Qaeda that we have made, how do you in 
the State Department kind of envision reconstruction in Syria, 
specifically the role that the U.S. plays in that effort? And 
also, frankly, kind of what lessons have we learned from 
Afghanistan, bad lessons or good lessons that we have learned 
from Afghanistan, and how should those lessons be applied in 
the reconstruction of Syria?
    Mr. Rayburn. Concerning reconstruction, which is another 
way of saying, I think, normal economic relations between the 
international community and the Syrian government, we withhold 
that and we press others to withhold that until the Syrian 
government has acceded to the implementation of the political 
solution under U.N. Security Council Resolution 2254. So, until 
there is irreversible progress under 2254 and that political 
process, the United States should not contribute to 
reconstruction in Syria, and we shouldn't encourage it. We 
should discourage others from doing so, to keep the pressure on 
the Syrian government.
    As far as lessons from Afghanistan, I think you are 
probably meaning about the different studies that have been 
done about how reconstruction wound up fueling corruption, and 
so on. I think that is a problem that will have to be addressed 
when the time comes. It is one that we have to watch out for 
for sure. I mean, I was involved in Iraq for many years, as we 
witnessed a similar problem in Iraq. So, it is a problem. It is 
a problem I would like to have, though. That would be a better 
problem to have right now than having the war in Syria raging 
fully. So, if we get to a reconstruction phase, it should be 
once the political solution is irreversibly being implemented 
and the war is over.
    Ms. Houlahan. So, I only have a couple more seconds. But 
you spoke a little bit about the pressure that we had. Other 
than sanctions, what kind of other leverage could we use, to 
your point, to help the Syrian government find their way and to 
have other allies and non-allies help make progress a reality 
in this area? What other leverage points do we have? And I only 
have, I'm sorry, about a half a minute, 15 seconds.
    Mr. Rayburn. Sure. The biggest way is political isolation 
and accountability, including through law enforcement or 
international cooperation for law enforcement. Isolation has to 
remain. The Assad regime/the Syrian government has got to 
remain isolated from the international economy, from the 
international community, until it accedes to 2254.
    Chairman Engel. Okay. Thank you.
    Ms. Houlahan. I ran out of time, and I yield back. Thank 
you, Mr. Chairman.
    Chairman Engel. Thank you, Ms. Houlahan.
    Mr. Malinowski? Is Mr. Malinowski here?
    [No response.]
    Okay. We will move on.
    Mr. Vargas.
    Mr. Malinowski. I am here.
    Chairman Engel. Mr. Malinowski.
    Mr. Malinowski. Thank you, Mr. Chairman. Sorry, I was 
muted.
    First of all, I just wanted to add my words to all the 
words of thanks, to the praise that you have received. It has 
been such a pleasure and honor for me to work with you on this 
committee for the last 2 years.
    Somebody mentioned that there will be a portrait of you 
hanging in the committee. There are many former chairmen with 
portraits. There are, I think, very few former chairmen who 
have had streets named after them in the
    [audio interference] of countries that the United States 
has helped, as you have been honored, which is a tribute to you 
and to the kind of American leadership that you have championed 
and will continue to champion through your career.
    Since it is the last hearing of the year, I also just want 
to say a word of thanks to everyone I have had a chance to work 
with: my subcommittee chairs, Mr. Castro, Mr. Deutch; to the 
members on the Republican side with whom I have partnered, Mr. 
Kinzinger, Mr. Curtis, Mrs. Wagner, our ranking member, of 
course--the bipartisanship on this committee is wonderful--and 
to members of the committee staff who have been so helpful to 
me, Mira Resnick; Jen Hendrixson White, who helped so much with 
the Hong Kong bill that we passed this week; Ed Rice; Laura 
Carey; Jay
    [audio interference]; Sajit Gandhi; Janice Kaguyutan, and 
so many others for their hard work.
    I just have a couple of questions to Mr. Rayburn on the 
subject of today's hearing. I think a number of members have 
raised all of the problems that arose from the President's 
aborted decision to withdraw troops from Syria and to leave our 
allies in northeastern Syria in the lurch, so to speak. 
Fortunately, that was aborted. But I think there has been less 
attention paid to the decision the Administration made to 
basically stop stabilization funding for the parts of Syria to 
which we do have access, including not sending appropriated 
funds or seeking additional funds from Congress. I think the 
argument was made, well, our allies our stepping up. Most of 
that money from our so-called allies was from Saudi Arabia, 
which has very different priorities and values from the United 
States.
    So, my first question to you, Mr. Rayburn, is really where 
that stands in terms of American contributions to 
stabilization, USAID programming, in those areas. And would you 
recommend to the next administration that the United States 
play a leading role on the civilian side, in addition to the 
military side, in the Syria to which we have access?
    Mr. Rayburn. Thank you, Mr. Malinowski.
    We do agree we are in a stabilization phase in the campaign 
against ISIS in eastern Syria and Iraq as well. And so, 
stabilization activities of all kinds have to continue. I mean, 
that includes military stabilization, but it is also 
reestablishment of essential services to try to get those 
communities up on their feet.
    Of course, we do contribute as well with humanitarian 
assistance. And the stabilization projects in Syria to date 
have totaled about $1.3 billion. That has included, as you 
mentioned, contributions from our Gulf partners. The Saudis 
contributed $100 million; the Emiratis contributed $50 million 
that were used across 2018 and 2019. Those went into U.S. 
programs. So, they were not independently executed by the Saudi 
government or the Emirati government. So, they went according 
to our priorities and they funded our projects.
    And so, yes, the stabilization activities like that need to 
continue, and we will continue both doing what we can from the 
U.S. side, but also trying to solicit partner contributions as 
well. And there have been a number of stabilization activities 
that continue under the auspices of our partners in the global 
coalition as well.
    Mr. Malinowski. Thank you. I guess the final questions with 
the little time I have left. We are all concerned about the 
humanitarian situation for ordinary Syrians under Assad's 
control. You began to address this, but how would you weigh the 
balance in terms of responsibility for suffering of ordinary 
civilians in, say, Damascus between sanctions and the Assad 
regime's own economic policies and corruption?
    Mr. Rayburn. I think we have to continue the pressure that 
we are applying, and we have to try to target that as precisely 
as possible, so that we are sanctioning the parts of the regime 
that we need to sanction in such a way that it is not having a 
spillover effect to harming the Syrian people. But, I mean, in 
the end, as I mentioned earlier in the haring, the single 
greatest thing we can do to try to end the suffering of the 
Syrian people is to hold the Assad regime accountable, so that 
it has to stop the war and it has to accede to the political 
solutions, come into the political process in a meaningful, 
irreversible way.
    You have to understand, the Assad regime is still bombing 
the Syrian people. It is still shelling the Syrian people. It 
is still disappearing the Syrian people into its prisons right 
now. And that is the single greatest cause of suffering of the 
Syrian people.
    Chairman Engel. Thank you. Thank you, Mr. Malinowski.
    Mr. Malinowski. Thank you.
    Chairman Engel. Mr. Castro.
    Mr. Castro. Thank you, Chairman.
    Mr. Rayburn, thank you for your testimony today.
    In August, The New Republic reported that an American shell 
company has gotten an unusual license to export Syrian oil. The 
report alleges that the company is closely connected to a 
prominent donor, to certain U.S. politicians. And the report 
also alleges that U.N. Ambassador Jeffrey met with Nechirvan 
Barzani to talk about this deal. Can you tell us why you met 
with Mr. Barzani to discuss this deal? And also, did you meet 
with Mr. Barzani to discuss oil deals with any other American 
companies or only the one that was for this particular 
prominent donor?
    Mr. Rayburn. Congressman, you are speaking about the 
license that was issued to Delta Crescent Energy to help the 
local authorities of northeast Syria to try to raise the 
efficiency of those local oil installations that our local 
partners control. We supported that. We issued foreign policy 
guidance. The Treasury Department issued a license. We 
supported that because we support trying to get the economy of 
northeast Syria up and running to the extent that it can under 
the present conditions of war across Syria. So, I mean, we 
thought it was a good thing for not just U.S. companies, but 
others to be able to come in to help the local communities 
stand back up on their feet.
    We are talking about the communities that were victimized 
by ISIS. They were in the heartland of the caliphate. So, when 
you go through those communities, they are completely blasted 
from years and years of war. They need everything. So, for them 
to be able to use their resources, oil resources----
    Mr. Castro. But did you lobby for this deal for this 
particular company?
    Mr. Rayburn. No, we did not lobby. I would have to--we did 
not lobby anyone for the deal. We issued----
    Mr. Castro. You had a discussion about it, though?
    Mr. Rayburn. Yes.
    Mr. Castro. You had a meeting about it?
    Mr. Rayburn. Oh, yes, we met with members of that company. 
We met with local authorities.
    Mr. Castro. You met with Mr. Barzani also?
    Mr. Rayburn. With Nechirvan Barzani, yes.
    Mr. Castro. Yes. And did you discuss deals for any other 
American companies besides that one?
    Mr. Rayburn. No.
    Mr. Castro. So, just that one deal?
    Mr. Rayburn. That I was involved in, yes.
    Mr. Castro. The reason I ask the question, you know, this 
is a huge donor to some important U.S. politicians. I am going 
to editorialize a little bit, but I do not know that there 
would be too much dispute from many Americans that we are just 
leaving what has been a dark period of corruption and graft, in 
some cases fraud, that has been looked the other way at, 
sometimes, I would argue, encouraged by the Trump 
Administration. And so, that is the genesis of my question.
    Mr. Rayburn. I do not have any visibility on those aspects, 
Congressman. I mean, this was a straightforward issue of 
issuing foreign policy guidance for a license request, which is 
something that we do routinely.
    Mr. Castro. All right. I am going to ask you about some 
humanitarian issues real quick and following up on Mr. 
Malinowski's question.
    Despite a large portion of Syrian territory no longer 
facing active fighting, the humanitarian situation has only 
worsened. More than half the Syrian population needs 
humanitarian assistance, as you know. The U.N. announced 
earlier this year that 9.3 million people are now food-
insecure, an all-time high. Many Syrians report waiting 6 hours 
to purchase bread, if they can afford it at all.
    You said in your written testimony that the Administration 
has ensured that our sanctions against Syria are not impeding 
essential assistance to the Syrian people. This is commendable, 
and certainly, Assad and his allies have actively subverted 
humanitarian aid. Still, most NGO's working on the ground say 
our sanctions are actively hindering their ability to deliver 
assistance to the Syrian people.
    And so, my question is, what steps, if any, will you take 
to reduce the humanitarian impact of our sanctions? For 
instance, are you willing to whitelist certain Syrian 
organizations and banks to allow NGO's to transfer money and 
purchase supplies from them?
    Mr. Rayburn. Congressman, we already do that any time--I 
mean, there is a problem in the humanitarian community of over 
compliance, where banks or other institutions over comply with 
our guidance. We try to work with Treasury to clarify that. 
OFAC has issued guidance over time explaining exactly what is 
permissible and what is not under our Syria sanctions program. 
So, I feel pretty confident that we are making headway there.
    And when we get specific instances from a humanitarian NGO, 
or something, where they are denied the ability to open a bank 
account, or something like that, we can engage with the 
business or the bank to clarify our policy to them. We are 
willing to do that all the time.
    Mr. Castro. I yield back, Chairman. Thank you.
    Chairman Engel. Thank you, Mr. Castro.
    Mr. Trone.
    Mr. Trone. Thank you, Mr. Chairman. I would like to the 
remarks that have already been made in how much myself and 
certainly members have really appreciated your leadership on 
this committee. It has just been spectacular for a long, long 
period of time. And the key that has made this committee so 
successful and so productive is your spirt of bipartisanship, 
and that type of leadership is what we need throughout this 
Congress.
    I would also like to call out the tremendous work that you 
have done in the Middle East area, and that has been so 
important to our most important ally over there, Israel.
    Your mentorship and friendship has also really meant a lot 
to me. As a freshman member, it is just so wonderful to have 
someone that can help you learn the ropes and give someone like 
myself guidance. And so, I really, really want to thank--I 
appreciate it--for your service.
    Chairman Engel. Thank you, Mr. Trone. Thank you very much.
    Mr. Trone. You are welcome. You are welcome. Thank you.
    If the witness could talk about--and it has already been 
touched upon already--the dire threats facing the refugees' 
return from Syria, from neighboring States, Lebanon, Turkey, 
that have hosted thousands of Syrian refugees since the 
beginning of the civil war in 2011. And now, they are 
increasingly calling for Syrians to return home.
    Reports have emerged that Syrian refugees are being forced 
to return from both of the neighboring States, including 
hundreds at the end of late 2019, documented by Amnesty 
International and by various Lebanese press reports of 
evictions and forced returns of Syrians from Lebanon. And I 
would like to know kind of what extent, if at all, is the U.S. 
working to remind neighboring countries, such as Lebanon and 
Turkey, of their obligations under international law.
    Mr. Rayburn. Thank you, Congressman.
    I think, with respect to Turkey, we have a good 
understanding with the government of Turkey, and we both share 
the fundamental view that refugee returns have to be safe, 
voluntary, and dignified. And I think we have a good 
coordination with Turkish counterparts on that.
    With respect to Lebanon, it has been more challenging. And 
in my previous role as Deputy Assistant Secretary for Levant 
Affairs, I and my colleagues have had to interact with Lebanese 
counterparts from time to time to remind them that refugee 
returns have to be those three characteristics--safe, 
voluntary, and dignified. There are some Lebanese political 
figures who would like to line-through the voluntary aspect, 
but we have reminded them that that is not acceptable.
    And by the same token, we have tried to continue to do our 
part in marshaling international community support to help 
alleviate the burden that the refugee hosting countries bear 
because some of them are of very meager resources. Lebanon is 
one. Lebanon is going through a very, very difficult economic 
crisis. And Jordan is another one. And so, these are countries 
that I think it is important for us to continue to have the 
international community provide assistance, so that the refugee 
burden can be alleviated, but not at the expense of removing 
that voluntary aspect of refugee returns.
    And then, again, and also trying to push for the single 
greatest thing that could make refugee returns to Syria 
possible, which is for Bashar al-Assad and his regime to end 
their war against the Syrian people and go into a political 
process to get to a political solution to the conflict.
    Mr. Trone. Thank you.
    And quickly, what do the armed U.S. partner forces in Syria 
expect from the United States over the short term, the medium 
and long term? What are they looking for us to do?
    Mr. Rayburn. So, the main one you are talking about is the 
Syrian Democratic Forces and other local partner forces in 
northeast Syrian. And I think what they expect, and I think 
what they can count on, is that the global coalition to defeat 
ISIS is going to be maintained and that the campaign to defeat 
ISIS by, with, and through local security partners will 
continue, not just in Syria, but in Iraq, because it is a 
problem that spans both countries.
    Mr. Trone. Thank you. I yield back. Thank you.
    Mr. Castro [presiding]. Thank you, Mr. Trone.
    Mr. Vargas.
    Mr. Vargas. Thank you very much, Mr. Chairman.
    I also want to join my voice to all those other voices that 
have congratulated you, Mr. Chairman. I have to say that I 
learned of Eliot Engel when we adopted a Muslim family. My wife 
and I adopted a Kosovar family, the
    [audio interference], because of the ethnic cleansing that 
was going on there. And they asked if I knew President Clinton 
at the time, which I did, and Eliot Engel. I did not know Eliot 
Engel, but I know Eliot Engel now and I know why he has a 
street named after him and, also, stamps, because of your great 
work there. And, of course, they have incredible respect for 
you, as do I.
    And I will miss you very much, and especially the work you 
did in the Middle East, and, in particular, the work that you 
did around peace in Israel.
    I do want to ask--Mr. Rayburn, thank you for being here--I 
do want to ask you a little bit more about the refugee issue. 
Now I have been to the refugee camps in Lebanon, both in Beirut 
and the Bekaa Valley. I have also been to the refugee camps in 
Jordan, and I have been to the refugee camps in Egypt, where 
there are Syrians.
    I have to tell you, the conditions are not great, and some 
situations better than others. But one of the things that I did 
see, and asked about, was that a lot of the countries in the 
Middle East really were not stepping up and doing their fair 
share of putting money into these camps to help out. Now has 
that changed?
    Mr. Rayburn. The contributions from the international 
community, like-minded countries, to the refugee problem has 
remained pretty high. We have not seen it decrease. And this 
year, the main forum of the Brussels Donors Conference, which 
is co-hosted by the EU and the United Nations, we got another 
set of good pledges. So, I think, so far--you know, fingers 
crossed--the international community is continuing its level of 
support.
    Mr. Vargas. Well, what about the Gulf countries? I mean, 
that is the criticism that I heard there, that a lot of the 
wealthy countries in the Middle East had not put a lot of money 
themselves, that they had sort of walked away, and instead, 
allowed the rest of the world to shoulder most of the burden.
    Mr. Rayburn. Congressman, I would have to get back to you 
and check what the Gulf countries' contribution has been to 
assistance for the refugee communities outside of Syria. I do 
not have that in front of me right now.
    Mr. Vargas. OK. And I would say, also, I mean, it has been 
some time since the first time I went there. They have been in 
these refugee camps now for a long time, and things do happen. 
Children grow up there. They learn how to live like refugees, 
which is difficult. I know that they cannot repatriate right 
now, and you said, to repatriate, it would have to be safe and 
dignified and--I do not want to put words in your mouth--you 
said, safe, voluntary, and dignified. And I know they cannot do 
that at the moment. And since they cannot, why do not we 
receive more of these refugees ourselves? I mean, I think it is 
a real scandal that we do not accept more of these Syrian 
refugees. Why do not we?
    Mr. Rayburn. So, Congressman----
    Mr. Vargas. Mr. Rayburn, are you there?
    Mr. Rayburn. I am here, Congressman.
    Since the start of the conflict in 2011, the United States 
has resettled more than 22,000 Syrian refugees. In Fiscal Year 
2020, we resettled 481, and currently, there are 29,000 Syrian 
nationals who are pending processing in our refugee admissions 
program. So, I would say the refugee process continues, yes.
    Mr. Vargas. Well, it certainly continues, but at a meager 
pace. I mean, there are so many refugees that we see went to 
Turkey. I mean, Turkey, in my understanding, has over 3.5 
million refugees from Syria. And yet, we are looking at 400 
this year? I mean that, to me, seems scandalous, that we are 
not doing our fair share to receive these people who are in 
dire need.
    But I guess I would just end, and I want to thank you. I 
know you have been working hard. This is not a criticism of 
you, but it is a criticism of this administration that has not 
been willing to welcome Muslim refugees into our country at the 
level that we should be, because they are in dire straits.
    And last, I would say, of course, we have been talking 
about the issue of Ambassador Jeffrey. I would highlight that, 
back in 2016, he was one of the 50 Republicans
    [audio interference] who signed that letter that Donald 
Trump was ``not qualified to be President and Commander-in-
Chief''--that is a quote--and that he would put our country's 
national security and well-being at risk. So, of course, he was 
hiding things from the President because he was afraid the 
President did not know what the hell he was doing.
    Thank you again. And I do thank you for your service. I 
know you are a very capable person. We have very many capable 
persons in the Administration, and I appreciate it. Thank you.
    I yield back.
    Mr. Castro. Thank you, Mr. Vargas.
    Mr. Costa.
    Mr. Costa. Thank you, Mr. Chairman.
    And I want to concur with my colleague, Congressman Vargas' 
comments, not only on the refugees, not only Turkey, but Jordan 
has done a great deal, but also his comments on Ambassador 
Jeffrey as to the President's conduct on foreign policy, I 
would say overall.
    Special Envoy Rayburn, I want to redirect the questioning. 
A lot has been discussed this morning about Turkey's 
involvement in Syria and what their real intentions are and the 
different alliances that they have played on. And I would like, 
with your expertise, to have you make a comment with regards to 
Turkey's regional ambitions, not only as it relates to Syria, 
but I, along with many of my colleagues, have been very, very 
upset and concerned with their interaction with Azerbaijan 
acting as a proxy with Armenia, and where that has put Armenia 
in a very precarious position at this point in time, given the 
resolution that I think was forced on Armenia by Russia and 
Turkey as it relates to Azerbaijan and the territory in dispute 
with Artsakh.
    What is Turkey's--I mean they have got tremendous problems 
right now with not only the pandemic, but with their economy. 
And Erdogan has taken this country in such a bad direction, in 
my view, the jailing of journalists and such. It is not the 
Turkey that we knew two decades ago, and frankly, I am not sure 
that they are worthy of continuing to be a partner in NATO, 
given their actions in recent years.
    Could you care to comment, please?
    Mr. Rayburn. Thank you, Congressman.
    Turkey's involvement beyond Syria in places like Azerbaijan 
and others is beyond my lane, and I cannot answer for what 
Turkey thinks its interests are in those other crises or those 
other places.
    In Syria, with Turkey, we try to maintain as constructive a 
dialog as possible. What Turkey does to protect the civilians 
of northwest Syria who have been under incredible assault from 
the Assad regime and the Russians for several years, this is 
something that we support, as do other like-minded countries, 
including many, many European countries.
    And where there are tensions in places like the border zone 
of northeast Syria, we work very hard to try to diffuse those 
tensions and to make the atmosphere as constructive as 
possible. We do not succeed in that all the time, and there 
have been some real ups and downs, some real challenges. But I 
would say right now there is a tense calm in northeast Syria, 
and in northwest Syria I would say we need the Turks to 
continue doing what they have been doing.
    Mr. Costa. Well, what do you think their real goals are 
toward the Kurds? You talked about northeast Syria.
    Mr. Rayburn. That is difficult to say. I mean, I think we 
could say what we believe is in the best interest of both, 
which is for there to be a secure and peaceful border between 
northeast Syria and Turkey, so that the communities on both 
sides of the border can live in peace. And we try to apply our 
diplomatic energy to diffusing tensions and trying to help both 
sides point toward that kind of future.
    Mr. Costa. But when you look at all the players in Syria, I 
mean, you could make a case that there are four different 
conflicts that are going on, and it just does not seem to me 
that--notwithstanding all of your efforts, Mr. Rayburn, that it 
is not clear. I mean, you opened your statement by indicating 
that you thought that things were turning out in a way that 
might provide positive outcomes for our intentions and our 
allies, but that does not seem to be clear to me.
    Mr. Rayburn. Well, I strongly believe that, and with my 
background, I do not think I am an irrational optimist. I lived 
through the whole Iraq conflict and that was a pretty 
depressing one.
    The Syria situation is pretty depressing, too, in 
conditions on the ground.
    Mr. Costa. Very depressing.
    Mr. Rayburn. But I think we are on a different trajectory 
now, and I think you will see that in the months to come. Our 
leverage is going to grow month by month, and I think our 
adversaries have hit their peak and they are waning now. That 
is my personal judgment.
    Mr. Costa. Well, my time has expired, but I hope that your 
note of optimism is warranted, because it still does not seem 
to be clear to me that that is deserved. But we will continue 
to work on all of the above and hope for the best.
    Thank you very much.
    Mr. Castro. Thank you, Mr. Costa.
    Mr. Al Green of Texas.
    Mr. Green of Texas. Thank you very much, Mr. Castro, Mr. 
Chairman, for your friendship and the many things you have 
done.
    I also am an interloper today. So, I have to thank the 
chairperson, Mr. Engel, for allowing me to have this 
opportunity.
    I thank Mr. McCaul for his friendship, not only here, but 
also on Homeland Security.
    Ms. Pelosi, the Speaker, helped us with this issue related 
to Austin Tice, as did Mr. Hoyer. So, I thank them as well.
    I have been on this 8-year mission, a mission of mercy, 
along with the Tice family, to secure the return of Austin. And 
as is known by the people who are here, H.Res. 17 passed the 
House recently, bipartisan, bicameral support. It received 
little attention in the press, which is the predicate for my 
question.
    Has this been called to the attention of the President, 
H.Res. 17, which would have Mr. Tice and Mr. Kamalmaz returned 
home? Do you know whether it has been called to the attention, 
Mr. Rayburn, of the President?
    Mr. Rayburn. I do not personally know that, Congressman. 
But, knowing the attention that the President has given to the 
Austin Tice issue, as well as other unjustly detained or 
missing Americans, I cannot imagine that it wasn't brought to 
the White House's attention. And I know my counterpart, 
Ambassador Roger Carstens, who works on hostage affairs, he is 
very well-informed about that House resolution. And so, I am 
pretty confident this has been reported, made available up the 
chain.
    Mr. Green of Texas. Thank you.
    Moving to another question, UNSCR 2254, does it preclude a 
negotiated return of Mr. Tice and Mr. Kamalmaz?
    Mr. Rayburn. No, not at all.
    Mr. Green of Texas. And this resolution has passed, and if 
the President is aware of it, and we can have a negotiated 
return of these two persons--and by the way, I would want all 
persons returned as well; I just happen to be familiar with 
these two. And I would hope that the family members who heard 
me make my earlier comments would understand that I want their 
relatives returned home, too. It is important. They have missed 
them.
    But, given that we have done this, is there anything that 
you can share with reference to a negotiated return of our 
friends, of these Americans?
    Mr. Rayburn. For a fuller accounting of that, of that 
engagement, I would defer to Ambassador Carstens. What I can 
say is that we strongly believe that the Syrian government has 
information about the status/whereabouts of these missing 
Americans, including Austin Tice, that they have not shared. 
And we believe that they have it within their means to effect a 
return of Austin Tice and, certainly, a disclosure of his and 
other missing Americans' status. And they, so far, have been 
unwilling to share that information, and they have been pressed 
by our side to do so.
    Mr. Green of Texas. My final question is something that I 
did not really come to ask, but I rarely get this opportunity, 
so I will. Tartus and Sevastopol are pretty important to the 
U.S.--or to Russia. Russia is a cold water country. Tartus 
gives Russia a place for its Black Sea fleet to be dispersed. 
Oh, pardon me, Sevastopol does. Tartus gives it access to the 
Mediterranean. How likely is it that Russia will leave Syria, 
given that Tartus is fairly important to its global designs?
    Mr. Rayburn. That is a good question, Mr. Green. We have 
not held out as a condition for the political solution to the 
conflict that the longstanding Russian military relationship 
with the government of Syria has to end. We have not held that 
out. In fact, the language that we have used is that military 
forces, foreign military forces, that are present in Syria that 
were not there before 2011 should leave as part of the 
political resolution to the conflict. So, the Russians had a 
naval presence there for many decades before 2011, and we have 
not tried to press for their preexisting relationship to end.
    Also, the relationship that the Syrian government would 
have in its international relations, in its military relations, 
that is for the future Syrian government that will result from 
the political solution and the transition, the political 
transition process, that is envisioned under 2254, that is for 
the Syrian people to decide in the future. So, we rely on them 
to do that.
    Mr. Green of Texas. Mr. Chairman, you were more than 
generous. Thank you so much. I yield back.
    Mr. Castro. Thank you, Mr. Green.
    Thank you, Mr. Rayburn, for your testimony.
    To the members, thank you for your comments and your 
questions.
    And as a reminder, any extraneous material can be submitted 
for the record.
    With that, we are adjourned.
    [Whereupon, at 1:08 p.m., the committee was adjourned.]

                                APPENDIX
                                
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                                 [all]
</pre></body></html>
